                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                                                 Inspection of the
                                           Bureau of Near Eastern Affairs

                                              Report Number ISP-I-11-49A, May 2011




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552.Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

This inspection was conducted in accordance with the Quality Standards for Inspections, as
issued by the President’s Council on Integrity and Efficiency, and the Inspector’s Handbook, as
issued by the Office of Inspector General for the U.S. Department of State (Department) and the
Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

        The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                          ii
                              SENSITIVE BUT UNCLASSIFIED
                                             SENSITIVE BUT UNCLASSIFIED


                                                     Table of Contents

Key Judgments ................................................................................................................................ 1
Context ............................................................................................................................................ 3
Executive Direction ........................................................................................................................ 5
Policy and Program Implementation .............................................................................................. 9
  Functional Offices ....................................................................................................................... 9
  Regional Offices ....................................................................................................................... 17
  Foreign Assistance .................................................................................................................... 24
  Other Issues ............................................................................................................................... 26
Resource Management .................................................................................................................. 28
  Executive Office Overview....................................................................................................... 29
  Planning for the Iraq Transition ................................................................................................ 30
  Regionalization and Management Initiatives............................................................................ 31
  Human Resources ..................................................................................................................... 32
  Financial Management .............................................................................................................. 38
  Domestic Services ..................................................................................................................... 44
  Security Program ...................................................................................................................... 47
Management Controls ................................................................................................................... 52
  Performance Management ........................................................................................................ 52
  Recruiting Practices .................................................................................................................. 52
  Time and Attendance ................................................................................................................ 53
  Extensions and Performance Management for Temporary Employees .................................... 54
  Purchase Card Program............................................................................................................. 54
List of Formal Recommendations ................................................................................................. 56
List of Informal Recommendations .............................................................................................. 62
Principal Officials ......................................................................................................................... 65
Abbreviations ................................................................................................................................ 66
Appendix A: Summary of Foreign Assistance Funding Allocation ............................................ 67




                                                         iii
                                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Key Judgments
 •   The Bureau of Near Eastern Affairs (NEA) does an outstanding job pursuing U.S.
     interests in the region under particularly challenging circumstances. The Assistant
     Secretary has built a strong front office team dedicated to its mission and to sharing the
     often overwhelming workload with its employees.

 •   This inspection took place during a period of change in the Middle East unprecedented in
     its intensity and impact, region-wide. NEA managed crises in Tunisia, Egypt, Libya,
     Bahrain, and elsewhere, while dealing compassionately with evacuated families. At the
     same time, the bureau was able to maintain its focus on its important work on Iran,
     Middle East peace, and the transition in Iraq.

 •   Morale among employees is generally high, due to pride in working on critical issues and
     recognition from the front office. Morale is good despite an often inadequate working
     environment, and competition is keen for many NEA positions, domestically and
     overseas.

 •   Interagency interlocutors praised the bureau for its leadership, inclusiveness, mastery of
     policy issues, and operational effectiveness.

 •   The transition from a military- to a civilian-led presence in Iraq poses challenges for the
     Department of State (Department); it must ramp up its presence there quickly and
     securely, even with resource questions affecting its mission not yet decided. Department
     planning and coordination have been thorough with the Department of Defense (DOD)
     and other agencies dedicated to the transition. The appointment of an Iraq Transition
     Coordinator for the Department is a welcome addition, as the date for completing the
     transition approaches.

 •   Staff in the Iraq office is not used effectively, and NEA needs to reorganize the staffing
     pattern.

 •   A separate team in the executive office focuses solely on planning for the upcoming
     military-to-civilian transition in Iraq. Team members are proud of what they have
     accomplished so far. However, communication and coordination issues with the NEA
     Iraq policy office, as well as the unclear budget picture and occasionally confusing
     strategic guidance, are hurting the planning process.



                                        1
                           SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


    •     The new deputy assistant secretary (DAS) for public diplomacy has made important
          improvements to ensure that the bureau’s messaging is consistent, timely, and
          coordinated with other agencies, particularly on Iraq. Still, the Department needs to
          clearly define the authority and responsibilities of this new position, relative to those of
          the existing position of public diplomacy office director, to avoid confusion and
          duplication of effort.

    •     While employees are energized by the importance of their work, the pace of bureau work
          interferes with training. NEA needs to implement orientation and mentoring programs,
          develop a handbook for desk officers, and urge managers to spend more time teaching
          their staff, rather than fixing papers for them.

    •     The executive office that supports both NEA and the Bureau of South and Central Asian
          Affairs (SCA) does a remarkably good job in many areas, particularly given the heavy
          workload. However, the financial management office’s ability to properly manage the
          funds it controls is questionable. Moreover, human resources services need to be
          addressed.

    •     The executive office’s technology team is operating in crisis management mode, as
          bureau staff face frequent and recurring computer system outages, causing papers to be
          late and staff to work overtime, waiting for resumption of service. Customers are
          dissatisfied with the service provided by the Bureau of Information Resource
          Management (IRM) 3 years after consolidation, but problems also typically involve
          antiquated Department infrastructure, which may take years to fix.


The inspection took place in Washington, DC, between February 9 and March 17, 2011.
(b) (6)




                                              2
                                 SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Context
        The inspection of NEA took place at a time of unprecedented turmoil in the Middle East.
In December, at the beginning of the Office of Inspector General (OIG) survey of bureau
employees and contacts, the self-immolation of a young fruit merchant in Tunisia set off
repercussions throughout the Arab world. Within days, the President of Tunisia had departed and
an interim government had taken power. This was followed in January by mass demonstrations
in Egypt which, after 2 weeks, led to the departure of a long-time ally of the United States,
Egyptian President Hosni Mubarak. Demonstrations in Jordan, Yemen, Libya, Iraq, Algeria,
Morocco, Bahrain, and other states in the region required governments of those countries to
respond. These events impacted critical U.S. interests. To manage these crises, support the
Secretary and President as they considered policy options, and continue the bureau’s ongoing
work, including on Iraq and Middle East peace, NEA staff worked extraordinarily long hours,
sometimes through the night. They prepared policy papers for, and sometimes participated in,
over 100 meetings under National Security Staff authority from January through mid-March.

        As the inspection concluded in March, armed conflict bordering on civil war was raging
in Libya, the Gulf states were still trying to cope with protestors’ demands, and the Gulf
Cooperation Council had sent troops to Bahrain to quell unrest. Other states in the region were
focused on the conflict in Libya as well as on their own domestic audiences, carefully
considering what, if any, political and social reforms might be required to maintain stability and
order. The world’s attention also remained on Iran and its intransigence on human rights and
nuclear nonproliferation issues. More important was the question of how Iran might try to take
advantage of the opportunity presented by instability in the largely Sunni-ruled Gulf states, while
suppressing free expression at home. Through all of this, the effect of these changes on the
Middle East peace process, as well as on other strategic U.S. interests, loomed as serious,
unanswered questions, even as NEA continued to support transition in Iraq.

        Meanwhile, the White House, the Secretary of State, the U.S. Ambassador in Baghdad,
and other State Department principals, together with the DOD, were engaged in serious budget
discussions, both internally and with Congress, to ensure that the United States had the financial
and personnel resources in the FY 2012 budget to complete the transition from a military- to a
civilian-led American presence in Iraq, as U.S. forces depart from there later in the year. At
inspection’s end, these negotiations continued, as Congress continued to debate how to fund the
government in the current fiscal year.

       Clearly, the challenges of this period impacted NEA’s workload, as never before.
Although always a significant part of the Department’s strategic agenda, and consistent with the
President’s 2009 Cairo speech, human rights and democracy in the region took on a greater
urgency and focus than ever before. At the same time, while supporting protestors urging
democratic reform, the United States sought to ensure that these changes did not damage U.S.
medium- and long-term interests in the region. The bureau was at the epicenter of efforts to
review these issues and prepare recommendations to the President, the Secretary, and other
principals. As an example of the intensity of this period, beginning in early January through mid-
March, the bureau prepared policy papers for, and often participated in, more than 50
                                           3
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Interagency Policy Committee and subcommittee meetings, 40 deputies committee meetings, and
16 principals committee meetings, as well as separate meetings of the National Security Council
with the President, and with National Security staff. The burden of this workload was aggravated
by the fact that agendas for these meetings were often late and/or changed at the last minute; the
bureau often did not get timely informal read-outs from these meetings; and summaries of
conclusions often came out several days later – with tasking deadlines already passed, and after
subsequent meetings had transpired.

       The bureau was required to staff two 24/7 task forces and a number of “shadow task
forces” through mid-March, in large part to make sure that the evacuations of the U.S. citizens
from Egypt, Libya, Bahrain, and Yemen proceeded smoothly, and to manage the effects of
additional Wikileaks disclosures of purported embassy cables.

        During the inspection, the Department selected an Iraq Transition Coordinator, an
ambassador with Iraq experience, to work for the Deputy Secretary for Management and
Resources and with the bureau, DOD, the Chairman of the Joint Chief of Staff, Embassy
Baghdad, and other interagency actors, to ensure the success of the transition. The Department
also selected an ambassador with considerable experience in the region to act as the Coordinator
for Egypt Transition. The U.S. Ambassador to Tripoli, withdrawn due to security concerns in the
aftermath of the Wikileaks affair, continued to work on policy toward Libya and to lead U.S.
interaction with the Libyan opposition. Ironically, the evacuations in Egypt and Libya provided
the bureau with much-needed help, as evacuees from Embassy Cairo and Tripoli were available
in Washington.

        Domestically, NEA has 321 employees. Overseas, 1,346 U.S. direct-hire and 7,007
locally employed staff work in 17 U.S. missions in the region. The total FY 2010 budget
resources (domestic and overseas) for NEA were $1.2 billion (excluding salaries for direct-hire
Americans).




                                          4
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
        The crises in the Middle East gave inspectors an opportunity to see the NEA leaders in
action in a time of enormous change and significance to the United States. Their extensive
regional expertise, collegiality, and esprit de corps set the tone for all levels of the bureau.
Employees knew their front office team was working as intensely as they were and that each
person’s work counted. This knowledge contributed to generally high morale, although the
intense workload and lack of progress on some issues influenced it negatively. Most importantly,
the outstanding and timely products of their efforts, including policy recommendations for the
Secretary and President, underscored the reputation of the bureau as one of the finest in the
Department.

         The Assistant Secretary has served throughout the region, including as Ambassador in
Lebanon, as well as principal deputy assistant secretary and acting Assistant Secretary
immediately prior to his current position. He received consistently high marks from employees
throughout the bureau and the Department for his knowledge of the region, his communication
skills, and his genuine concern for his staff and their workload. His own grueling schedule only
reinforced that appreciation. During this inspection, he made three trips to the region: to Tunisia
in the aftermath of government changes there, to the Gulf for a week of shuttle diplomacy, and to
Bahrain to try to defuse tensions after the Gulf Cooperation Council had sent troops there.
Ironically, this schedule reflected less travel than he normally undertakes.

        While the Assistant Secretary told the inspectors that he has not had the time to do long-
term strategic planning with his leadership team, in fact he took advantage of any opportunity to
do so. In January, as events in Egypt unfolded, he convened an ad hoc strategy session with his
front office team and his ambassadors, who were in Washington for the Global Chiefs of Mission
conference. Later, after his trip to the Gulf, the Assistant Secretary presided over a meeting with
his front office team to discuss the risks and opportunities of the dramatically unfolding events
throughout the Middle East. These sessions contributed to the discussion led by the Secretary
and other principals on the U.S. policy response.

       The Assistant Secretary has put together a team of seven DASes who, for the most part,
have considerable executive leadership experience themselves, including as ambassadors, chiefs
of mission, deputy chiefs of mission, and chargés d’affaires throughout the region. The noncareer
DAS overseeing the Middle East Partnership Initiative (MEPI) has an academic background
working on Middle East and assistance issues.

        The principal deputy assistant secretary, a former ambassador, has spent most of his
career working on Middle East and related issues, including tours as Chief of Mission in
Jerusalem and deputy chief of mission in Beirut. His Iraq experience, gained from prior senior
positions in the Department and in Baghdad, has informed policy discussions as the transition in
Iraq goes forward. He is both chief operating officer for the bureau and alter ego to the Assistant
Secretary, serving frequently as acting Assistant Secretary due to the Assistant Secretary’s heavy
travel schedule. He is known throughout the Department and the interagency community for his
experience and policy sense, as well as for his bureaucratic and interpersonal skills. His
                                           5
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

colleagues in the NEA/SCA Executive Office (EX) give him high marks for being attentive to
the management demands of NEA. He meets weekly with them to address both resource and
personnel issues.

        In addition, the bureau’s overseas team includes its ambassadors and chargés in the field,
most of whom have had long NEA careers. These chiefs of mission serve admirably, but where
there are leadership issues, the Assistant Secretary does not hesitate to address them directly with
the individual. In a region where women’s rights are generally limited, both the NEA front office
and its chiefs of mission have a high percentage of women in their ranks, setting an impressive
example for their Middle Eastern counterparts and others.

        The front office team shares information with its employees well. Each Friday, the
Assistant Secretary convenes an open meeting that all bureau employees and key contacts inside
and outside the Department may attend. Interagency contacts praised the front office for its
professionalism, transparency, and openness, saying it resulted in better communication for all
sides as they work together on difficult and urgent issues.

        The Assistant Secretary, DASes, and EX director take an active interest in filling the
bureau’s positions with the best officers they can find. The need to fill key Iraq slots over the
past 7 years has resulted in many non-NEA hands coming into the bureau. The Assistant
Secretary is understandably proud of this influx of new blood. Competition for prime NEA slots
remains fierce, despite the long hours.

        Each member of the front office also serves as a role model of expertise, tradecraft, and
work ethic. Several times during the inspection, the Assistant Secretary and the DASes worked
through the night alongside their staff to meet short deadlines for papers or actions. No matter
how busy the front office is, the Assistant Secretary takes time to compliment and thank staff for
their efforts. Many desk officers, however, are serving in that position for the first time, whether
they are entry-level officers or mid-level Foreign Service or Civil Service, and they need a more
structured introduction to the work.

        Currently, there is no formal orientation program, to either introduce staff members to
their work or to give them practical information about requesting services from EX. While the
Office of Egypt and Levant Affairs has developed a handbook for its desk officers, there is none
for bureau-wide use. The lack of orientation and resources for new staff leads to confusion about
roles and processes and, ultimately, wastes time. There also have been a few examples of
confusion when new desk officers were unfamiliar with the procedures for clearing press
guidance outside the bureau.

Recommendation 1: The Bureau of Near Eastern Affairs should develop an annual orientation
program and handbook for new personnel, including guidance on procedures and expectations
and information about support services. (Action: NEA)

       The pace of work is so intense that a poorly written draft or one that misses policy nuance
is more likely to be fixed by a supervisor than returned to the drafter. In order to meet deadlines,
the opportunity is lost to teach and mentor the next generation of leaders. In addition, larger
                                                  6
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

numbers of entry-level officers are serving their first tour in the Department, without the benefit
of overseas service. While the principal deputy assistant secretary has served as a mentor for a
recent, entry-level Foreign Service class and continues his role with a number of officers,
particularly those serving in the bureau or its posts, the need for greater mentoring is clear.
Failure to do so leads to some frustration among desk officers and managers. Both the Bureau of
Consular Affairs and the Bureau of Economic, Energy, and Business Affairs have leadership
programs that NEA could draw from, and the Foreign Service Institute’s Leadership and
Management School has ample leadership courses, organizational development training, and
coaching programs that could assist supervisors in these efforts.

       The bureau employs staff in a wide variety of personnel categories, all of whom
contribute in significant ways to NEA’s considerable productivity. These include political
appointees, members of the Foreign Service, traditional and excepted Civil Service employees,
contractors, when-actually-employed staff, fellows, and interns. The varying terms of
employment and lack of clearly identified career paths for some personnel categories can
sometimes lead to misunderstandings about an employee’s place in and value to the bureau.

Recommendation 2: The Bureau of Near Eastern Affairs should establish and implement a
mentoring program for entry-level officers and employees in personnel categories not already
covered by formal counseling and evaluation programs. The program should involve direct
engagement of the front office. (Action: NEA)

        A few special advisors in the front office reinforce bureau leadership where there is a
high volume of senior-level activity required, such as for Yemen. The inspection team found,
however, scant justification for dedicating a GS-15 employee to be a Senior Advisor for Iranian
Affairs. There has been little activity in the past 8 months that cannot be handled by personnel in
the Office of Iranian Affairs. The inspection team examined documents from multiple sources
and conducted interviews with embassies and with a range of offices inside and outside the
bureau, including those of special envoys. It concluded that, notwithstanding the relevant
experience the incumbent brings to the portfolio, demand for the employee’s contributions were
insufficient to justify the position, especially in light of the bureau’s other unmet priority staffing
needs.

Recommendation 3: The Bureau of Near Eastern Affairs should eliminate the position of
Senior Advisor for Iranian Affairs and reprogram position number D-03530-00 to an office
where it can be better used. (Action: NEA)

       Office directors and deputy directors in the bureau face the challenge of managing crises,
completing normal work, and developing staff. Several country directors expressed regret that
there was no natural forum in NEA for sharing those experiences with their peers. Senior staff
meetings and the bureau’s expanded weekly meetings are policy focused and often devoted to
discussing urgent operational issues. Office directors and deputies would benefit from the
exchange of experience and views on human resource professional development.



                                            7
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

           Informal Recommendation 1: The Bureau of Near Eastern Affairs should
           periodically use one of its weekly staff meetings or other gatherings with office
           directors as a forum for senior staff to discuss professional development, both for
           themselves as supervisors and their subordinates.

        A number of the DASes did not have current work requirement statements signed by the
Assistant Secretary. This applied to the Assistant Secretary, as well. While it was clear that, even
in the midst of crisis, each officer understood clearly his or her responsibilities and that feedback
from supervisors was forthcoming, NEA should remedy this gap immediately.

           Informal Recommendation 2: The Bureau of Near Eastern Affairs should prepare,
           sign, and submit work requirement statements for all front office employees.

        The bureau does not have a centralized calendar listing key items such as major events,
visiting foreign officials, and groups of exchange visitors in Washington. Such a calendar would
improve coordination and open up opportunities to take better advantage of visitors and events.
The NEA SharePoint site would be an excellent place for a shared calendar, because each office
could add its own items.

           Informal Recommendation 3: The Bureau of Near Eastern Affairs should establish
           a bureau-wide calendar of events, visitors, and programs.




                                           8
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Functional Offices

Office of Regional and Multilateral Affairs

        The Office of Regional and Multilateral Affairs actively manages major cross-cutting
issues and contributes substantially to integrating bureau activities. These include: strategic
planning, foreign assistance, furthering U.S. economic and commercial interests in the region;
political-military programs, liaison with the Multinational Force and Observers in the Sinai,
global issues; and congressional relations. Several Civil Service staff members ensure continuity
in managing these complex issues. The office employs effectively a variety of interns and
fellows.

        The Foreign Service director and deputy director earn high marks for strong leadership.
In keeping with the wide-ranging office portfolios, the staff is outward looking and spends
considerable time coordinating with all offices in the Bureau, with other Department bureaus,
and other Federal agencies. The office succeeded in recruiting staff for the numerous task forces
NEA was charged with standing up in early 2011. The director maintains continual outreach to
counterpart regional offices in other geographic bureaus with which he initiated monthly
meetings to coordinate on issues of mutual concern. Among other things, these meetings have
been useful in jointly developing improved processes for meeting functional bureau requirements
for compiling congressionally-mandated reports. The deputy ably leads the bureau’s economic
policy advocacy and commercial promotion and manages the bureau’s strategic planning
process, with frequent direct input from the front office.

         The quality of interaction with and support for the Multinational Force and Observers has
improved markedly in recent years. Some of the obstacles have been addressed that were
preventing Foreign Service officers from smoothly reintegrating into the Department after
serving in the Multinational Force and Observers’ civilian observers unit. However, challenges
persist, including problems with bidding on onward assignments, delays in the effective dates of
earned promotions, and difficulties with reinstatement on the Department’s payroll.

Recommendation 4: The Bureau of Human Resources, in coordination with the Bureau of
Near Eastern Affairs, should establish standard operating procedures for reintegrating into the
Department the Foreign Service officers returning from duty with the Multinational Force and
Observers and include in the work requirements of a designated officer the responsibility to
address the reintegration challenges facing these individuals. (Action: DGHR, in coordination
with NEA)

       U.S. Government personnel of the Multinational Force and Observers are authorized
diplomatic passports by the Bureau of Consular Affairs, Special Issuance Agency, but are having
applications denied. The OIG team determined that this complication in issuance of diplomatic
passports has been rectified by a January 2011 revision of the Diplomatic Travel Manual, which
now authorizes 5 year diplomatic passports for eight key positions within the Multinational
                                          9
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Force and Observers. OIG considers the above action taken by the Bureau of Consular Affairs to
be sufficient, and no recommendation is necessary.

        The Bureau of Diplomatic Security is administratively terminating security clearances
after notification from the Bureau of Human Resources that the employee has resigned from the
Department. Since 2007, there have been seven recorded instances of Multinational Force and
Observers designees having security clearances revoked and removed from the Bureau of
Diplomatic Security, Case Management System. This action is largely due to lack of awareness
of the policy set forth by Deputy Secretary Richard Armitage in the cable STATE 021222 in
January 2003 authorizing that certain Multinational Force and Observers employees must
maintain their security clearance as they are “acting on behalf of the Department.” Currently,
clearance reinstatement is being conducted on an ad-hoc basis by the NEA Bureau Security
Officer, which is not a viable solution to the problem and runs counter to the directive given by
Deputy Secretary Armitage.

Recommendation 5: The Bureau of Human Resources, in coordination with the Bureau of
Near Eastern Affairs and the Bureau of Diplomatic Security, should establish standard operating
procedures that prevent security clearances being terminated upon resignation of Department
personnel seconded to the Multinational Force and Observers. (Action: DGHR, in coordination
with NEA and DS)

        The Office of Regional and Multilateral Affairs has one of three NEA positions
designated to manage congressional issues, although only one was filled at the time of the
inspection. Just prior to the inspection period, through the initiative of the front office staff
assistants, the bureau eliminated a sizeable backlog and regained control over the flow of
congressional correspondence. There remains room for improvement in NEA’s management of
the myriad responses to nonwritten congressional requests for information and requests for
briefings. At times, the Bureau of Legislative Affairs staff is not informed of NEA’s contacts
with congressional offices or the status of requests that the Bureau of Legislative Affairs passed
to action offices. With its well developed mechanisms for dealing with offices both within and
outside NEA, the Office of Regional and Multilateral Affairs could perform a useful service to
the bureau, in improving coordination on interactions with the Congress.

Recommendation 6: The Bureau of Near Eastern Affairs, in coordination with the Bureau of
Legislative Affairs, should develop and implement standard operating procedures for dealing
with requests from the Congress. These procedures should include routinely notifying the Bureau
of Legislative Affairs staff and others within the Department, as appropriate. (Action: NEA, in
coordination with H)

Office of Press and Public Diplomacy

        Fast-moving, lean, and professional, NEA’s Office of Press and Public Diplomacy
(NEA/PPD) does a good job responding to the daily inundation of requests and taskings, while
keeping a handle on the status of public diplomacy programs and exchanges in a rapidly
changing environment. However, as it grapples with a plethora of high-profile, sensitive issues,
the office is also struggling with many of the same practical and philosophical issues that beset
                                                 10
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

public diplomacy Department-wide. The geographical division of the office, which is split
among four different locations in two buildings, makes the task of integrating its efforts even
more difficult.

         In response to a mandate from the Under Secretary of Public Diplomacy and Public
Affairs, NEA added the position of DAS for Public Diplomacy and Strategic Communications in
2010. The bureau initially expressed concerns about potential overlap between this position and
that of the office director, who had previously performed many of the functions envisioned for
the new DAS. This issue has remained unresolved, resulting in confusion, duplication, and
unclear lines of authority and responsibility. The DAS has become heavily involved in
operational issues, rather than concentrating on big picture planning involving all aspects of
public diplomacy; the office director has become involved in many press issues, rather than
focusing on the day-to-day operations of the office and bringing the full range of public
diplomacy resources to bear on NEA issues. The upcoming arrival of a deputy office director for
press, a position that has been vacant since the summer of 2010, heightens the urgency to clarify
each person’s role.

Recommendation 7: The Bureau of Near Eastern Affairs, in coordination with the Office of
Policy, Planning and Resources for Public Diplomacy and Public Affairs, should rewrite the
work requirements and position descriptions to clearly delineate the authority, duties, and
responsibilities of the deputy assistant secretary for Public Diplomacy and Strategic
Communications and the director of the Office of Press and Public Diplomacy in relation to each
other. (Action: NEA, in coordination with R/PPR)

         The new DAS arrived with strong strategic communication skills, bolstered during her
year working with the military in Iraq, but without a formal public diplomacy background or
training. She has succeeded in improving NEA/PPD’s coordination with the policy desks in the
Department and with the information and communications offices at the Pentagon. She also
makes sure the bureau’s messaging takes advantage of new media and reflects U.S. interests.
Still, her lack of familiarity with the scope and long-term purpose of public diplomacy programs
aimed at building lasting relationships has led to their taking a back seat to the more urgent
messaging challenges of the day. Also, since she has arrived in the bureau in June 2010, the DAS
has not traveled to the region to familiarize herself with how embassy public affairs sections are
using the full spectrum of public diplomacy tools. The office director, who took up his duties in
September, 2010, also has not yet traveled to the field.

           Informal Recommendation 4: The Bureau of Near Eastern Affairs should require
           the deputy assistant secretary for Public Diplomacy and Strategic Communications
           and the director of the Office of Public Diplomacy to travel to the region in the very
           near future, to familiarize themselves with the public diplomacy programs and
           challenges in the field.

        The physical division of NEA/PPD has exacerbated the leadership challenge. Some
employees work on Navy Hill, in a separate compound across the street from the main
Department building where the unit’s front office and press office are located. The Navy Hill
staff oversee public diplomacy programs, support public affairs sections in the field, and liaise
                                               11
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

regularly with the Bureau of Educational and Cultural Affairs and the Office of International
Information Programs. Creating more opportunities for in-depth contact between the staff on
Navy Hill and office leadership in the main Department building would enhance mutual
understanding.

           Informal Recommendation 5: The Bureau of Near Eastern Affairs should
           encourage the deputy assistant secretary for Public Diplomacy and Strategic
           Communications and the director of the Office of Press and Public Diplomacy to
           have more informal, in-depth contact with the staff, through monthly brown-bag
           lunches at Navy Hill and other gatherings, such as an all-staff meeting off site.

           Informal Recommendation 6: The Bureau of Near Eastern Affairs should include
           the Office of Press and Public Diplomacy’s deputy director for public diplomacy on
           the press office distribution list, to improve information sharing between the two
           elements of the office.

        As noted above, the physical separation of the various parts of the office has made
coordination and communication more difficult, especially between the press and public
diplomacy staffs. Because movements of office space are complex decisions that can affect the
equities of other offices and bureaus, the OIG team did not formally recommend immediately
reuniting NEA/PPD; however, the bureau should make doing so a high priority.

         Some bureaus within the Department have public diplomacy desk officers embedded in
the policy offices handling their countries. The 2004 OIG inspection report for NEA
recommended following such a course, which the bureau partially implemented, but then
abandoned. At this point, the practical difficulties of moving all the public diplomacy desk
officers would outweigh the benefits gained. The office is already physically split, and most
public diplomacy desk officers cover countries in more than one regional office. Public
diplomacy desk officers now routinely attend the regional offices’ staff meetings, a constructive
initiative by the DAS. Another initiative by the DAS was the creation of a weekly coordination
meeting on Iraq, bringing together policy, press, and public diplomacy program staff. Its success
led to the creation of a similar coordination meeting on Iran, inaugurated in February 2011 and
expanded to include other interagency partners.

       The Iran desk has a public diplomacy officer on staff who acts as liaison with NEA/PPD,
which also has a public diplomacy desk officer at Navy Hill who covers Iran and other countries.
Although it is not standard, this arrangement for Iran functions well; it also promotes close
coordination between the policy and public diplomacy message and programming regarding this
most sensitive policy area.

        NEA/PPD’s coverage of Iraq was undergoing changes at the time of the inspection. The
desk officer was leaving, and the office was preparing to hire two staff members, one to focus on
strategic communications and liaison with the military, and another to focus on programs and
exchanges. Coordination between policy and public diplomacy would benefit if at least one of
these individuals, and possibly both, would sit in the Iraq office. Shortly after the inspection,
NEA embedded one of the new Iraq public diplomacy staff members within the Iraq office.
                                                 12
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        All of the Iraq public diplomacy staff mentioned above, as well as the press officer who
focuses on Iraq, are noncareer, temporary appointment Civil Service employees, hired under
U.S. Code Title 5, Section 3161 (informally called 3161s). Logically, a career Foreign Service or
Civil Service officer should oversee what is arguably the most important public diplomacy
portfolio in NEA. However, NEA/PPD has only three career public diplomacy desk officer slots
for the entire region, and has decided not to devote one of them to Iraq when it has the option of
hiring temporary 3161 employees for Iraq. Looking ahead, though, the bureau will need to
transition to a more normal Iraq office structure for public diplomacy.

Recommendation 8: The Bureau of Near Eastern Affairs should develop a transition plan for
Iraq public diplomacy to give oversight responsibility to a career public diplomacy professional.
(Action: NEA)

        As the public affairs section at Embassy Baghdad undergoes the transition to a more
normal public diplomacy operation, there is a need to determine what resources it will require in
its base budget for public diplomacy activities. The U.S. Embassy in Baghdad drafted a 3-year
strategic plan, which was still in the clearance process at the time of the inspection. The
uncertainty about future funding levels has complicated the planning process.

        NEA/PPD has developed communications and strategic plans for various issues and parts
of the NEA domain. It is beginning to reposition its public diplomacy spending in line with the
strategic priority of countries in the region, as advocated by the Under Secretary for Public
Diplomacy and Public Affairs. The FY 2012 plan written before the arrival of the current public
diplomacy DAS and office director makes relatively little mention of public diplomacy. It
includes a public diplomacy goal paper, and the Assistant Secretary’s opening statement cites the
importance of public diplomacy, but besides that, the plan mentions public diplomacy only in the
goal papers for Middle East peace (requesting a press officer), Iraq, and enhancing infrastructure.
An additional element that needs to be incorporated in public diplomacy planning in the FY 2013
Bureau Strategic and Resource Plan is the Public Diplomacy Strategic Framework issued in
February 2010 by the Office of the Under Secretary for Public Diplomacy and Public Affairs.

Recommendation 9: The Bureau of Near Eastern Affairs should integrate public diplomacy
more widely throughout its Bureau Strategic and Resource Plan and incorporate the concepts
from the Public Diplomacy Strategic Framework. (Action: NEA)

        NEA/PPD’s press office has achieved a reputation for agility, responsiveness, and close
coordination with NEA front office and policy offices. It conducts significant direct outreach
(some of it in Arabic) to members of the Arab and Middle East news media, and does some of its
own monitoring of Arabic social media. It has been able to do this because the office has been
fortunate to have on its staff a student fellow who is a native Arabic speaker, as well as officers
who are fluent in the language. During the inspection, NEA/PPD was making plans to bring on
board bloggers in Arabic and Persian. Maintaining adequate language capability on short notice
is an important need for this office, especially in view of the imminent departure of the student
fellow and normal staff turnover. However, it raises questions of duplication, cost-effectiveness,
and policy coordination with the other Department offices that are engaging in social media and
digital outreach.
                                                  13
                                SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



Recommendation 10: The Bureau of Near Eastern Affairs, in coordination with the Bureau of
Public Affairs, the Office of International Information Programs, and the Office of Policy,
Planning and Resources for Public Diplomacy and Public Affairs, should develop a
memorandum of understanding outlining the conditions under which the Bureau of Near Eastern
Affairs will carry out blogging, in order to avoid duplication and to ensure policy and message
coordination. (Action: NEA in coordination with PA, IIP, and R/PPR)

        Also during the inspection, as the key role social media played in the regional upheavals
of early 2011 became clear, an issue arose among NEA/PPD, the Bureau of Public Affairs, and
the Office of International Information Programs about whether the policy offices should clear
Tweets aimed at the region, to ensure they are highlighting the most effective messages, or
whether such clearances would needlessly hamstring efforts to engage audiences via Twitter.

Recommendation 11: The Bureau of Near Eastern Affairs, in coordination with the Bureau of
Public Affairs and the Office of International Information Programs, should come to a common
policy regarding when clearances are and are not needed for social media messages. (NEA, in
coordination with PA and IIP )

Office of Middle East Partnership Initiative

         The MEPI office serves as NEA’s in-house assistance programming office, running
projects to promote more pluralistic, participatory, and prosperous societies in the Middle East
and North Africa. Its programs reach 17 countries plus the West Bank and Gaza. Funding for the
MEPI office in FY 2010 was $65 million from Economic Support Funds and $1.7 million
provided from diplomatic and consular programs (D&CP) funds. The office’s unique mandate
and separate physical location have sometimes caused its staff to feel isolated from the rest of
NEA and have hampered the rest of the bureau’s understanding of MEPI’s functions. However,
the outbreak of pro-democracy demonstrations throughout the Middle East and North Africa in
early 2011 threw a spotlight on MEPI’s work to promote civil society and highlighted the value
of its programs. The office also demonstrated its flexibility and responsiveness when it quickly
reprogrammed $20 million from lower priority programs to meet new needs in Tunisia.

        OIG recently conducted an inspection of the MEPI office, and released a report (ISP-I-
10-76) in August 2010. Therefore, this NEA inspection report focuses on new developments and
issues arising after the previous OIG inspection.

        In response to a 2010 OIG recommendation, MEPI reorganized itself to create a separate,
three-person public outreach unit to produce informational materials, respond to press queries,
engage its audience online, and develop an alumni program. The unit launched a revamped Web
site in October 2010, moving it to the Office of International Information Programs’ platform,
for greater flexibility in updating content and including translated material. The unit also
launched a Twitter feed in January 2011, complementing its existing social media Facebook and
YouTube sites. Although the social media sites include some material in Arabic, the Web site
and informational materials are still nearly entirely in English. They would be more effective if

                                         14
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

they included more information in Arabic. MEPI staff would like to have more information
translated but are still exploring the best way to accomplish this goal.

Recommendation 12: The Bureau of Near Eastern Affairs should find cost-effective means to
translate into Arabic portions of the Web site and informational materials of its Office of Middle
East Partnership Initiative. (Action: NEA)

        At the time of this inspection, MEPI was preparing to issue a $4 million request for
applications, to create an alumni outreach network. The Bureau of Educational and Cultural
Affairs has an exchange alumni network and Web site; however, MEPI wishes to create its own
network, because most MEPI program alumni would not be eligible to join ECA’s State Alumni
Web site because they participated in programs in their own or other countries and thus are not
alumni of “exchanges.” Nevertheless, MEPI does run some exchanges involving travel to the
United States, and those alumni would be eligible to join the State Alumni Web site if they
received information about it, and if ECA could confirm that they were bona fide exchange
participants.

Recommendation 13: The Bureau of Near Eastern Affairs, in coordination with the Bureau of
Educational Affairs, should implement procedures to routinely distribute brochures and
informational material about the State Alumni Web site to Middle East Partnership Initiative
exchange participants while they are in the United States and to furnish lists of Middle East
Partnership Initiative exchange participants to the Bureau of Educational and Cultural Affairs.
(Action: NEA, in coordination with ECA)

        The new public outreach unit works closely with the NEA press office to provide
information about MEPI programs for speeches, talking points, and media inquiries. However,
there is some disagreement about whether the outreach unit or the NEA press office should take
the lead in speaking directly to journalists. While MEPI staff are the best informed about their
own programs, the NEA press staff are more attuned to the overall policy context and
sensitivities.

           Informal Recommendation 7: The Bureau of Near Eastern Affairs should work
           out an understanding between the Middle East Partnership Initiative’s public outreach
           unit and the bureau’s press office, regarding procedures for handling journalist
           interviews about the Middle East Partnership Initiative, factoring in issues like timing
           and sensitivity.

        After the 2010 inspection, MEPI leadership reorganized the office to create three
divisions – policy and programming, strategic planning and resources, and grants management.
Two of the division chief positions received an upgrade to GS-15. The grants management chief
maintained a GS-14 classification. The position has significant management responsibilities in
addition to grants officer responsibilities and the position description does not fully reflect the
management responsibilities.

Recommendation 14: The Bureau of Near Eastern Affairs should rewrite the position
description of the grants management division chief; conduct a desk audit to determine whether
                                               15
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

the position has the correct skill code and grade level, given its range of management
responsibilities; and reclassify and regrade the position, if warranted. (Action: NEA)

       The MEPI grants staff has made a major effort to conduct site visits of domestic-based
grantee organizations, most of which they had not visited in the recent past. They have created
new templates for evaluating and monitoring grant awards, as well as financial and
programmatic materials to help grantees meet grant requirements. The Office of the Procurement
Executive may find these informational materials and analysis aids useful for wider distribution,
provided they are in line with Department grant policies and literature.

Recommendation 15: The Bureau of Near Eastern Affairs should consult with the Office of the
Procurement Executive to confirm that the Middle East Partnership Initiative grant templates and
documents accord with Department-wide grants policies and literature. (Action: NEA)

        The new chief grants officer received a grants warrant based on extensive grants
experience at another U.S. Government agency, but had not yet taken the Department’s grants
training because of the press of duties in an office suffering from vacancies. Although most
grants rules are government-wide, some aspects of grants management are Department-specific.

           Informal Recommendation 8: The Bureau of Near Eastern Affairs should require
           the senior grants official in the office of the Middle East Partnership Initiative to take
           Department-specific grants training.




                                          16
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Regional Offices

Office of Israel Palestinian Affairs

         The Office of Israel and Palestinian Affairs functions smoothly, expertly, and with a
human touch that softens the burden of long work days. Staff members find their work
compelling. In addition to NEA, the office also supports the Office of the Special Envoy for
Middle East Peace (S/SEMEP). S/SEMEP taps NEA officers as needed, which allows it to
maintain only a small permanent staff. This relationship gives desk officers interesting work and
a chance to develop negotiation skills. It also presents some challenges in coordination,
priorities, and communication, which a separate OIG report on S/SEMEP covers.

         The office is effective and efficient. The director and deputy director bring policy
expertise and strong management skills to the job, and the staff includes a mix of seasoned and
relatively more junior employees. The inspectors counseled the director to examine aspects of
work flow, such as whether approval authority for the daily official-informal report could be
delegated to the deputy or the office could require contributions to be submitted for approval
earlier in the day. Goals would be to decrease overtime for all and allow time for additional
mentoring. Too often, deadlines and the volume of work mean the director has to fix papers
himself rather than return them to staff, which would allow staff members to develop further
their tradecraft and policy sensitivity. The inspectors also underscored the bureau’s responsibility
to take action on several recommendations in the recent OIG reports on Embassy Tel Aviv and
Consulate General Jerusalem.

Office of Egypt and Levant Affairs

        The Office of Egypt and Levant Affairs performs well. As noted, the inspection of NEA
began simultaneously with protests in Egypt, which put extraordinary strain on this office. All
but the office director and two desk officers arrived in the summer of 2010. Despite a relatively
junior staff and a long-term vacancy on the Lebanon desk, the office met the extraordinary
challenge of managing crises in Lebanon and Egypt and preparing the new U.S. ambassador to
Syria, the first in several years.

        The office director and deputy make a strong team. Both bring years of experience in
Middle Eastern affairs, policy sensitivity, and operational skill. The desk officers universally
lauded their substantive knowledge and hard work, saying that it bolstered morale to have their
supervisors in the trenches with them. Staff praised the managers for two innovations: putting the
office on a shift schedule during the Egypt crisis to ensure everyone had time off, and developing
“deep dive” meetings with each of the desks to allow more substantive discussion of issues. Desk
officers saluted the collegiality, good humor, and team work of their peers.

        Handling nonstop crises engendered a sense of pride, but left the staff exhausted, and
deprived the office of calm space for staff members to get to know one another and to develop
tradecraft. The OIG team counseled the managers to hold an offsite meeting soon, preferably
with a coach from the Foreign Service Institute, which would foster more communication and
give managers better insight into staff concerns.
                                                17
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Office of Arabian Peninsula Affairs

        Arabian Peninsula Affairs is a well managed, high output, fast paced office. A Senior
Yemen Coordinator assigned to the bureau’s front office handles requirements for interagency
and multilateral senior policy coordination. Neither the volume of work nor its relentless pace,
further exacerbated by early 2011 concurrent crises in the region, has negatively impacted office
morale. Staff members work well to ensure that information flows vertically and horizontally,
through regular and ad hoc staff meetings supplemented by close dialogue with and support from
the DAS. Embassies in the region appreciate greatly the frequent and thorough information
updates the office provides. In order to avoid a situation where the press of daily business
isolates staff from one another, the staff make concerted efforts to socialize informally. Staff
members report a reasonable work/life balance, access to training and the opportunity to travel to
their assigned countries.

        The office director and deputy work well together. They carefully monitor the workload
of each staff member’s portfolio and make adjustments and/or seek additional personnel
resources, as rapidly evolving developments in the region require. Staff members are justifiably
proud of an office reputation for delivering high quality, timely products. While officers
frequently pitch in to help each other out to ensure the work of the office gets done, there is
presently little – if any – staffing “cushion” to deal with additional crises in the region. More
immediately, there is a current need to augment permanent staffing on the Yemen desk.
Although the bureau has arranged a series of short-term assignments to assist the sole desk
officer, the centrality of Yemen in the fight against terrorism and the involvement of multiple
U.S. Government agencies there require the desk to have additional, and more senior, staffing.

Recommendation 16: The Bureau of Near Eastern Affairs should review its overall staffing
complement in order to identify and assign to the Office of Arabian Peninsula Affairs a second
full-time equivalent position for the Yemen desk. (Action: NEA)

Office of Maghreb Affairs

        In a bureau where regional offices routinely handle important policy issues of front-page
prominence, the Maghreb office traditionally has been one of the quieter places. This situation
changed in early 2011 as large-scale protests erupted on its territory, first in Tunisia and then in
Libya. Fortunately the small office, which in the past has suffered from staffing gaps, had its full
complement when it found itself on the front lines and stepped up to the challenge. After initial
hesitation as the situation developed, the office mobilized its resources and temporarily
rearranged portfolios to handle the crises. The Department established a Libya task force that
provided needed support, especially to cope with the evacuation of American citizens.

       Office morale is high, and there is a good working atmosphere. The director and deputy
have quite different styles, but balance each other well. Office members work well together and
back up each other. Desk officers have the sense that their voices are heard and have the
opportunity to travel to their countries. Staff meetings held three times a week keep everyone
informed, and the public diplomacy desk officer for the Maghreb region sits in on these meetings
once a week. The office does have the challenge of working in a less-than-ideal space; it
                                                  18
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

occupies cramped quarters in an out-of-the way cul-de-sac. The space lacks a conference room
and is inadequate to host visitors.

        The Maghreb office’s seven officers include an entry-level officer on a first tour and a
Boren Fellow. Except for the program assistant and fellow, the entire staff is Foreign Service. At
the time of the inspection, the office was trying to get a Civil Service position to cover its
regional affairs portfolio, which handles multi-country assistance projects and backs up the desk
officers. This addition would provide needed institutional memory for this increasingly important
office.

Office of Iranian Affairs

         The Office of Iranian Affairs is exceptionally well managed, and the DAS has energized
the staff. He is admired for his constructive criticism, as well as his advocacy of office
initiatives. The office director and deputy take seriously mentoring and professional
development. They delegate authority to a mix of experienced and inexperienced staff, while
providing guidance on policy nuances and offering tips on operational skills. The office consults
widely with diplomatic missions in Washington and other capitals, providing valuable
experience in bilateral and multilateral diplomacy to less experienced officers. Intense workloads
are fairly managed. The director and deputy are attentive to the full range of supervisory
functions, even the completion of records archiving.

        The inspector contacted three of the dozen officers at embassies worldwide who report on
Iran-related issues. These embassy officers praise the office leadership, one commenting how
well the office’s leaders and staff are mutual force-multipliers on policy objectives, especially
with third-country government officials. The office has supervisory responsibility for personnel
evaluations and other support, including funds disbursements to these embassy officers. The
inspection team commends the office for its pro-active, wide-ranging outreach to diverse
audiences globally to build understanding about U.S. policy objectives with Iran. In addition, the
office closely coordinates with the Bureau of Consular Affairs and devotes appropriate time to
sensitively counsel U.S.-Iranian dual nationals on family and property issues. (Additional
material is discussed in the classified annex of this report.)

Office of Iraq Affairs

        The Office of Iraq Affairs is by far the largest of the entire bureau, with nearly 60
employees. It supports the embassy in Baghdad, the largest U.S. diplomatic presence in the
world, as well as 16 provincial reconstruction teams; all are due for closure by October 2011.
Two will become consulates and two will become Embassy branch offices. The office’s efforts
are tied to ensuring that the current transition from a military- to civilian-led presence in Iraq,
with multiple consulates and embassy branch offices, is conducted with all the necessary
resources and security. When the OIG inspection ended, the level of these resources remained
under discussion within the Administration and with Congress, complicating planning efforts in
the office and leaving unclear what the ultimate outcome (and hence the organization of a future
office) will be. The office and its employees are to be lauded for their continuous hard work
under these difficult circumstances. (See the management section of this report.)
                                                   19
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



        The office is centrally involved in preparing the transition to a reduced, civilian-led U.S.
presence in Iraq, and in planning and implementing programs to help the Iraqi Government
assume full, sovereign responsibilities. Office staff scramble to address immediate demands for
position papers and to participate in Department and interagency meetings. Meanwhile, office
managers have difficulty carving out time to plan for medium-term activities. Although
immediate assignments for the current week must be satisfied (and they are), strong office
management is critical for successful, longer-term policy implementation. The inspection team
found ways in which the office could be more efficient, such as eliminating some functions and
evaluating how many positions are needed and how best to deploy them.

         The office has six directors and five deputy directors. With the multiple layers of
management, there are problems of communication. The office is organized into four pillars:
political affairs; politico-military affairs; economic and assistance affairs; and support for
provincial reconstruction teams and the transition. The scope of activity for the fourth pillar is
unclear to many, both inside and outside the Iraq Office, since virtually any topic can be deemed
to fall within the transition. There is also a group of seven 3161 employees handling
administrative and information dissemination tasks, discussed below.

Recommendation 17: The Bureau of Near Eastern Affairs should streamline the management
organization of the Office of Iraq Affairs in order to improve efficiency and communication.
(Action: NEA)

         The employees admire the DAS for his regional expertise and analytic skills, as well as
for his regular expressions of gratitude and praise for their hard work, but they feel removed
from him and the senior director. Employees report that the weekly office staff meetings are not
useful, and most have stopped attending. Including future-oriented items on the office staff
meeting agenda would increase the meeting’s usefulness. Numerous comments to the inspectors
from within and outside the office highlighted inadequate communication from the top, which
damages morale and leads to duplication of efforts. In one example, a number of the office staff
learned by hearsay (or from the inspectors) about the February 2011 announcement of the Iraq
Transition Coordinator, even though this new role will touch on all aspects of the office’s work.

           Informal Recommendation 9: The Bureau of Near Eastern Affairs should review
           the purpose of the weekly staff meeting in the Office of Iraq Affairs and widely
           communicate the substance of the meetings in the office.

         On external communications, the DAS is active and effective in speaking to think tanks
and community groups throughout the United States. He not only responds to requests but also
initiates visits in coordination with the NEA Office of Press and Public Diplomacy. Other
members of the Iraq office speak to visiting groups and at scholarly institutions.

        Many staff members have completed assignments in Iraq. They are passionate about
contributing to U.S. policy efforts, but some feel underemployed and are discouraged about how
their skills are used. Other staff members work long hours and need relief. The inspectors

                                          20
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

reviewed email transmittals that verified the late-evening work tasked within the office. Such
excessive late evening standby availability generates unjustified overtime expense.

        The office lacks effective oversight for time and attendance reports, and senior managers
are unaware of abusive patterns of overtime claims. The inspectors found pro forma reporting of
40 hour work weeks without validation of actual hours performed. The OIG team made a
recommendation regarding time and attendance in the Management Controls section of this
report. One employee claimed more than 11 hours of overtime per pay period in the 6 months
before and during the inspection, at a cost of $750 per pay period. The office does not have
procedures for approving overtime in advance. (See the Management Controls section of this
report.) It could minimize overtime expenses through advance planning, such as implementing
flexible schedules with shifts from noon to 8:00 p.m.

Recommendation 18: The Bureau of Near Eastern Affairs should implement flexible schedules
to reduce overtime expenses in the Office of Iraq Affairs. (Action: NEA)

        The inspection team observed that workload is not allocated according to assigned
portfolios. This setup generates perceptions of “poaching” and unpleasant competition within the
office, as well as confusion in other bureaus. It also causes avoidable delays, such as when
drafting officers without relevant subject matter expertise fail to consult office and bureau
colleagues to obtain accurate data and context on a particular issue.

        Occasional circumstances may occur involving a tight deadline on a specific task that
necessitates assigning tasks to a small group, but when such cases arise, managers should clarify
widely to the entire office which individuals are assigned which topics, and how long the
assignment will last. Managers also can reiterate the importance of lateral consultations with
office colleagues at early drafting stages.

Recommendation 19: The Bureau of Near Eastern Affairs should review the portfolios in the
Office of Iraq Affairs in order to revise and reassign staff within the office, so that work is more
evenly distributed. (Action: NEA)

        The office has its own staff assistant/chief of staff position to manage paper flow, and a
congressional liaison position. Both incumbents have reputations inside and outside the bureau
for effective coordination on the unremitting stream of assignments to the office. Indeed, NEA’s
two staff assistants characterized the positions as indispensible to smooth, overall bureau
operations. However, in some instances information and documents are not being shared with
these two persons, either inadvertently or deliberately. Failure to make good use of these
positions aggravates the instances of duplicative work and complicates the tracking of deadlines.

       According to mid-level managers, weekly management meetings do not focus on
managerial and supervisory topics, but instead repeat the topics handled in policy meetings. Mid-
level managers have not received feedback on their proposals, and administrative business is left
undone or unvetted. Preparing and using a written advance agenda would help discipline the
content of management meetings.

                                          21
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        Seven 3161 employees comprise the Iraq Policy and Operations Group (IPOG) in the
office. The group added Afghanistan support duties to its portfolio in 2009. It compiles and
disseminates twice-daily Afghanistan media summaries and twice-daily cable summaries for the
DAS and the Iraq office, with a comparable dissemination for offices handling Afghanistan. In
addition, the group established Web links on the classified and unclassified networks for Iraq and
for Afghanistan. A number of the Web links have not been updated for several months. Five
analysts in the group serve as note-takers and handle logistics for 11 Iraq-related interagency
working groups (held monthly or biweekly), telephone conference calls, and a monthly
Afghanistan coordination meeting. The analysts also assemble items drafted in the office into a
biweekly report that is emailed to a growing list of Department, congressional, military, and
think tank contacts. A limited review of survey feedback raised serious questions about the cost-
benefit ratio of using Department resources to produce this biweekly report.

        Justification for the IPOG is elusive. Besides IPOG staff, two other persons in the Office
of Iraq Affairs are forwarding daily Embassy Baghdad’s media summaries. Moreover, the
bureau’s Public Diplomacy and Press Office has a media specialist who distributes other articles
about Iraq. It is a misuse of resources for the IPOG group to disseminate media summaries; the
staff should be redirected to higher priority work. Careful tailoring of the State Messaging and
Archive Retrieval Toolset (SMART) cable profile system for employees in the office will
obviate the need for daily cable summaries. IPOG analysts could coach and guide the rest of the
office in defining individual SMART profiles. The analysts are swift, accurate drafters whose
skills could be developed and better used by direct participation in office activities beyond their
roles in taking minutes and arranging logistics for meetings. As an example, the 3161economic
analyst could be supervised by the economic deputy and would likely be more productive.

Recommendation 20: The Bureau of Near Eastern Affairs should eliminate the assembly and
dissemination of daily media and cable summaries by the Iraq Policy and Operations Group of
the Office of Iraq Affairs. (Action: NEA)

Recommendation 21: The Bureau of Near Eastern Affairs should require the Iraq Policy and
Operations Group analysts to conduct guidance and coaching on the definition of State
Messaging and Archive Retrieval Toolset cable profiles for its employees. (Action: NEA)

Recommendation 22: The Bureau of Near Eastern Affairs should assign the Iraq Policy and
Operations Group analysts to sector-specific supervisors in the Office of Iraq Affairs, where they
can contribute more efficiently to office operations. (Action: NEA)

Lessons Learned in Iraq

        The bureau can play a beneficial role in informing foreign affairs employees about efforts
to capture lessons learned from the whole-of-government experience in Iraq, which can offer
value for future, post-conflict situations. Studies are already underway about activities on the
ground in Iraq, as described below. The Department and other agency partners, however, have
not yet addressed the lessons learned from the governmental transition of military to civilian
responsibility in Iraq. The range of issues and actors involved in the military-to-civilian
transition should be examined in 2011, while memories are still fresh and planners are available.
                                                  22
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 23: The Iraq Transition Coordinator, in coordination with the Bureau of Near
Eastern Affairs and the Under Secretary for Management, should convene an offsite retreat in
2011, at the director level and above, with representatives of relevant bureaus and agencies, to
examine, report on, and memorialize in writing the lessons learned in the military-to-civilian
transition in Iraq. (Action: S/ITC, in coordination with NEA and M)

        Presently, various entities are focused on collecting material, cataloging it, and
conducting analyses that focus on stabilization and provincial reconstruction team operations in
Iraq. These include a best practices working group, co-chaired by the Department’s Coordinator
for Reconstruction and Stabilization, the Office of the Secretary of Defense, and the U.S. Agency
for International Development. The group enlisted the Center for Complex Operations, a quasi-
governmental organization housed at the National Defense University, to serve as the repository
for interviews of provincial reconstruction team personnel and to analyze their content. In 2010,
the Coordinator for Reconstruction and Stabilization established a password-protected,
interagency SharePoint portal as another repository.

        In addition, the Center for Army Lessons Learned in Fort Leavenworth has assigned staff
to conduct interviews of provincial reconstruction team personnel, and it shares the results with
Embassy Baghdad. Embassy Baghdad has built a database, and encourages provincial
reconstruction team personnel to send email copies of records using the SMART archiving
system. The embassy has established checkout procedures to require submissions before
provincial reconstruction team staff depart Iraq at the end of their assignments. The U.S. Institute
for Peace, among others, is engaged in compilation and analysis projects. The bureau’s Iraq
office is also collecting extensive materials.

        Separately, the Department’s Office of the Historian, in the context of its ongoing project
to produce a diplomatic history of the Iraq war – and because it is responsible for preparing and
publishing the official, documentary history of U.S. foreign policy in the Foreign Relations of
the United States series – is collecting information on its own, as well as through the sources
cited above.

        There is no central, Federal Government repository for compiling, cataloguing, and
studying lessons learned in Iraq, whether regarding the Department’s efforts specific to
provincial reconstruction team operations or for eventual, overall Iraq conflict and stabilization
studies. There may not need to be a single U.S. Government entity responsible for these studies;
however, in the course of the inspection, the OIG team observed that numerous parties in the
Department were not aware of the scope of activities related to, and the number of participants
involved in, lessons learned. There is a risk that interested parties may not even know about
some of the databases.

        Consistent with objectives identified in Section II, Chapter 4, of the Department’s 2010
Quadrennial Diplomacy and Development Review, it is time to move beyond lessons learned in
the provincial reconstruction team program and to designate a dedicated Department office with
adequate resources – in partnership with institutions such as the U.S. Institute for Peace – to
focus on lessons learned for the overall, Iraq-wide conflict, stabilization, and reconstruction
history.
                                                 23
                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

Recommendation 24: The Bureau of Near Eastern Affairs should transmit a closeout cable in
2011 that summarizes the lessons learned about the operations of the provincial reconstruction
teams and their stabilization efforts. (Action: NEA)

Recommendation 25: The Bureau of Near Eastern Affairs should transmit to all posts, in 2011
and annually thereafter, a cable that reports on the status of the best practices working group. The
cable should identify the range of activities reported to the group, including data collection,
analysis and validation, and dissemination. The cable also should identify the numerous U.S.
public and private entities engaged in gathering lessons learned in Iraq, and provide Web links
and points of contact in order to encourage contributions from the foreign affairs community.
(Action: NEA)

Recommendation 26: The Bureau of Near Eastern Affairs should implement procedures to
archive the lessons learned materials held in the Iraq office files on an annual basis, according to
Department records management standards and employing the Traffic Analysis by Geography
and Subject labeling system. (Action: NEA)

Foreign Assistance

        Most NEA countries do not qualify for foreign assistance, due to their relatively high per-
capita gross domestic product. The vast majority of the $7.4 billion for foreign assistance
available in FY 2010 was congressionally earmarked for Israel, Egypt, Iraq, and Jordan. In
addition, Lebanon, Yemen, and the West Bank and Gaza receive substantial funding. Overall, the
bureau has little flexibility in determining assistance allocations. The Office of Regional and
Multilateral Affairs has a well managed process for both preparing foreign assistance requests
based on Mission Strategic and Resource Plans and the Bureau Strategic and Resource Plan, and
for responding to the Office of the Director of U.S. Foreign Assistance or the Office of
Management and Budget on issues that require adjustment. The offices for Iran and Iraq, in
conjunction with the U.S. Agency for International Development, manage separate funding. The
Assistant Secretary and his deputies are active participants in bureau-wide deliberations on
decisions regarding allocations for projects and programs. One program not restricted by a
country’s level of economic development is MEPI, whose $65 million in FY 2010 appropriations
supported democracy and human rights in the region through engagement with civil society and
business leaders, students, women, activists, and lawmakers. 1

Near East Regional Democracy

         Congress funds the Iran-specific Near East Regional Democracy program, to support
initiatives that strengthen democracy, increase respect for human rights, and further integrate
people of the region with the global community. The Iran office has direct responsibility for a
number of grants. Trained grants officer representatives manage these grants well. Activities
fully comply with U.S. sanctions licensing requirements. The Iran office staff communicates
closely with the grants partners to monitor performance. When implementation difficulties arise,

1
 See OIG Report No. ISP-I-10-76 (August 2010), Inspection of the Bureau of Near Eastern Affairs, Office of
Middle East Partnership Initiative.
                                              24
                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

the office offers alternative strategies to the grantees. In other cases involving implementation
issues, the office and grantee promptly terminate a grant, thereby releasing funds to more
productive uses. Funding is returned to the Treasury when grants terminate early or have funds
remaining at the end of the award. Attentive oversight and thorough documentation produce both
good liquidation rates and good progress in meeting intended grant objectives.

Iraq

        The focus of nonmilitary U.S. foreign assistance in Iraq has shifted from physical
infrastructure reconstruction and rehabilitation to initiatives that build Iraqi capacity in
governance, economic reform, education, health, and justice. The total estimated amount for
grants and grants management for Iraq in FY 2009 and FY 2010 is over $88 million. In a 2-year
period, the Iraq grants unit handled more than 134 grants. The Iraq office has a grants unit,
established in 2007 to manage Washington-controlled grants. A warranted grants management
officer arrived in December 2010 to normalize operations of the unit. Establishing an inventory
and organizing files are time-consuming tasks that demand meticulous attention. The grants unit
was in the midst of these activities during the inspection period.

        In years past, when the bureau first arranged grants and interagency agreements for
assistance in Iraq, the grants unit worked hurriedly. In the interest of speeding disbursements, a
number of waivers were granted allowing the unit to skip certain standard requirements. Iraq’s
dangerous operating environment did not always allow for adequate training of persons with
oversight roles, full grant documentation, or on-site monitoring of grant implementation. In some
cases, the grants personnel did not know who, besides themselves, shared a role in managing
these funds. With a 9-month vacancy in the lead management position and constant turnover in
Baghdad, there is insufficient institutional memory regarding the origin and progress of some
grants. When the grants unit has questions, it reaches out to a previous manager, now working
elsewhere in the Department.

        The grants unit is taking steps to strengthen its operations. The lead grants management
officer is working intensively to build a file management system to make data retrieval easier.
The office’s senior advisor for assistance coordination is working with the experienced grants
officer to clarify appropriations and allotment levels. The grants unit is working on reconciling
grants that will be closed, and it has a good handle on the unliquidated obligations for certain
categories of funds. There remain miscellaneous grants that do not fall into identifiable
categories. The unit enlists the help of locally employed staff at Embassy Baghdad to locate
previous Iraqi grantees for information to complete files.

Recommendation 27: The Bureau of Near Eastern Affairs should establish standard operating
procedures in the grants unit of the Office of Iraq Affairs in order to capture accurate information
and strengthen management of assistance programs in Iraq. (Action: NEA)

       The lead grants management officer and a grants administrator spent 2 weeks in Baghdad
in January 2011 to provide much-needed training to some 30 embassy officers with grant
oversight responsibilities. Such training should be repeated regularly. Given the 1-year tours of

                                          25
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

duty in Iraq, it would be useful to schedule such training sessions in March-April and again in
October-November, so as not to conflict with the summer transfer cycle.
Recommendation 28: The Bureau of Near Eastern Affairs should budget and plan for one of its
grants officers in the Office of Iraq Affairs to conduct twice-yearly grants officer representative
training for officers at Embassy Baghdad and constituent posts who have assistance oversight
responsibilities. (Action: NEA)

        When the warranted grants officer travels or is otherwise absent, backlogs develop. This
situation arises because the unit’s other staff members are contract employees and therefore are
not permitted to take on the inherently governmental duties of a warranted grants officer.

Recommendation 29: The Bureau of Near Eastern Affairs should designate, train, and
appropriately certify a U.S. direct-hire employee to backfill for the warranted grants officer, as
needed, in the Office of Iraq Affairs. (Action: NEA)

Other Issues

State Messaging and Archive Retrieval Toolset

        The inspection team observed little use of the record email function of the SMART
software system. Record email is designed to archive emails that should be preserved for the
historical record, such as those relating to schedules for visitors, program implementation, and
the exchange of views on policy-related matters. Examples of messages and documents that the
bureau should consider for archiving in the SMART system are Welcome Home packages for
supervisors, Daily Activity Reports to the Assistant Secretary, and official–informal messages
exchanged with embassies.

Recommendation 30: The Bureau of Near Eastern Affairs should issue guidance on the types of
email and other correspondence that staff should archive in the State Messaging and Archive
Retrieval Toolset system. (Action: NEA)

Wikileaks

        The 2010 Wikileaks disclosures of purported Department cables generated more
information attributed to NEA posts than to any other region. The disclosures had an immediate
impact on U.S. relations with all NEA countries, and a profound impact on some. The U.S.
Ambassador in Tripoli was quickly recalled after a particularly strong reaction from the Libyan
Government. The designated DAS ably led NEA’s response to the Wikileaks publicity, which
included a task force to review the damage, summarize reactions from all posts, and prepare the
Secretary for potentially difficult conversations with foreign officials in the affected countries.
The head of NEA’s task force participated in the Department’s Wikileaks task force. In
coordination with the Bureau of Public Affairs, NEA’s public diplomacy staff developed an
innovative initiative, in which former ambassadors were deployed to educate audiences about the
role of cable traffic in the conduct of American foreign policy. The bureau also coordinated with
senior DOD officials traveling to the region to reinforce with foreign partners the importance of
continuing to work closely on issues of mutual concern. As Wikileaks cable disclosures
                                                 26
                                SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

continue, the regional affairs staff leads a bureau-wide effort to evaluate the risks of
compromised cables, give advice to U.S. embassies, and maintain a log of Wikileaks actions.
The inspection team heard numerous comments from NEA staff about how the Wikileaks
experience has inhibited communications by cable, as well as emails, between posts and the
Department.

Records Management

        With rare exceptions, most NEA offices are not implementing Department procedures for
managing and retiring records, as required by 5 FAM 414.5 and 5 FAH-4 H-113. Offices are not
organizing shared folders according to the Department’s Traffic Analysis by Geography and
Subject labeling system. They are not preserving email messages that meet the definition of
records in 5 FAM 443.2. Failure to implement such procedures impedes the ability of the
Department to retrieve official documents that are of value to the conduct of foreign policy and
to historians.

Recommendation 31: The Bureau of Near Eastern Affairs should issue a bureau memorandum
notice explaining that all Department employees are required to establish, maintain, and annually
retire official records, including email messages that meet the definition of records as specified
in Department guidance. It should also develop and implement a monitoring system to verify that
bureau offices are in compliance. (Action: NEA)




                                         27
                             SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Resource Management
Resource Tables

                                    NEA – Direct Hires (Domestic) 2
    Foreign         Civil           3161s      When        Detailed                   Interns/        Total
    Service        Service                    Actually      Staff                     students
                                             Employed
         110              153             48           7            1                            2          321

                                     NEA – Direct Hires (Overseas)
    Foreign         Civil           3161s       When        Detailed                  Interns/        Total
    Service        Service                     Actually       Staff                   students
                                              Employed
       1,175               40           126             5                                                 1,346


FY 2010 Resources Controlled by NEA 3                              Iraq Portion         Other          Total
(in thousands)
Traditional Overseas Program Funding (D&CP) 4                             $74,964 $186,883            $261,847
Additional Iraq Funding (D&CP)                                            592,773    3,439             596,212
Public Diplomacy (D&CP)                                                       435   23,418              23,853
Economic Support Funds, Iraq                                               97,815                       97,815
Economic Support Funds, Middle East Regional                                        87,838              87,838
(MEPI)
Development Assistance                                                                      396            396
Critical Infrastructure Program                                                           9,118          9,118
International Cooperative Administrative Support                                        136,636        136,636
Services
Representation                                                                   96         815        911
Other Appropriations 5                                                                   18,241     18,241
 Totals                                                                $766,083 6      $466,784 $1,232,867

As shown in Appendix A, the U.S. Agency for International Development and Department-
controlled foreign assistance funding for the region totaled $7 billion in FY 2010, $1 billion of
which was for Iraq.




2
  Domestic and overseas staffing numbers provided by EX.
3
  Numbers provided by EX
4
  Diplomatic and Consular Programs is abbreviated as D&CP
5 Unconditional Gift Funds, Foreign Service National Separation Liability Trust Fund, Sec. 810 USI & EE Act Fees,
White House Travel, Machine Readable Visa Processing Fees, and Commercial Service Fees
6
  About 85 percent of this funding was held and managed domestically in EX.
                                              28
                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Office Overview

        The Executive Office (EX) for NEA and SCA supports two of the busiest regional
bureaus within the Department. During this inspection, EX was handling the ordered departures
in Tunisia, Egypt, and Libya; the authorized departure in Yemen; and task forces related to the
crises in these countries; as well as the “normal” issues related to staffing and support for Iraq,
Afghanistan, and Pakistan. The office managers and staff were lauded by several interlocutors
for their support of overseas missions and good working relationships with other bureaus and
agencies. As one person said, “EX is really standing up to the job.”

        There are several problems, however, which the director and deputy directors are well
aware of but so far have been unable to solve. The domestic human resources (HR) office in EX
is broadly considered to be dysfunctional. The Office of Domestic Services (ODS), which had
been neglected for years, has improved during the past 9 months, but problems still remain in
information technology. The financial management office, which received reasonably good
reviews in the OIG survey, had difficulty producing the reports used to monitor funds
availability.

        EX, which has supported both bureaus since 1992, has three strong deputy directors: one
for NEA (except Iraq), another for SCA, and the third for Iraq. The deputy director for SCA
supports Afghanistan and Pakistan, as well as the rest of the South and Central Asian countries.
All three were praised by their staffs. The executive director is a strong management officer
known for his innovation and support of regionalization. EX also supports the Pakistan and
Afghanistan desks that are part of the Office of the United States Special Representative for
Afghanistan and Pakistan (S/SRAP), and provides support to S/SEMEP.

        Space constraints, which are an issue throughout the Department, are especially acute in
EX. The offices were in the process of being remodeled during the inspection, which forced the
EX staff to move to temporary offices scattered throughout three separate buildings. ODS, for
instance, was located approximately 20 minutes away by shuttle from the offices it serviced.
When the year-long remodeling is completed, the staff will move back into office space that is
twice the density of Department standards. This space issue is exacerbated by a Department
requirement that bureaus maintain control of all excess property until it can be listed as excess
and disposed of, a process that can take a month or more. The practical result of this rule is that
property has to be stored within bureau office space. In EX, it means that the areas near the front
door of the EX suite are stacked with old computers and other equipment. ODS has begun
investigating other options for storing this equipment, such as renting shipping containers to be
used for storage, but it has yet to develop a solution.

       As noted earlier in the report, NEA lacks a formal orientation program for employees;
Formal Recommendation 1, above, requires the bureau to begin one. A check-in form exists, but
a number of employees reportedly never received a copy. A similar problem exists with
employee check-out: although check-out sheets exist, their use is not enforced and employees
have left the bureau without closing travel advances, completing required security debriefs, or
having their computer log-ons transferred.

                                          29
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

           Informal Recommendation 10: The Bureau of Near Eastern Affairs should require
           that each departing employee complete and return to the Executive Office a
           comprehensive departing employee checklist.

Planning for the Iraq Transition

        A separate EX unit, the EX Iraq team, is responsible for planning for the military-to-
civilian transition in Iraq. This closely-knit group of 12 – a mixture of Foreign Service,
traditional Civil Service, 3161s, and contractors – works on management aspects of the
transition, from staffing and recruitment and budgeting to aviation and life support. Team
members report that communication and cooperation with Embassy Baghdad, offices and
bureaus outside of NEA, and DOD are good. In fact, some said it was the best they had seen in
their entire careers. Team members are proud of what they have accomplished so far. However,
communication and coordination issues with the NEA Iraq policy office, as well as an unclear
budget picture and what they see as confusing strategic guidance, are hurting the planning
process. As the Secretary noted, the military’s overseas contingency operations budget will drop
by $45 billion from 2010, while the Department’s costs will increase in the range of $4 billion
for Iraq. Funding levels are both uncertain and relatively low, to handle necessary operations.

        The EX Iraq team, headed by a Foreign Service officer, began focusing on the Iraq
transition in summer 2009. With the military scheduled to begin turning over some operations to
the Department on October 1, 2011, and with its scheduled departure from Iraq on December 31,
2011, the team is scrambling to get needed support systems in place. It developed a very useful,
SharePoint-based Web application called Iraq Common Operations Planning & Implementation
System to track staffing and task management, but some functions have yet to be installed. The
DOD has allowed the Department to use its contracts for support services for the first year
following the transition, but the Department still needs to put in place other support services,
such as hospitals and an air wing with both fixed-wing planes and helicopters. Much of this is
uncharted territory for the Department. The Department plans to open consulates in Erbil and
Basra and embassy branch offices in Kirkuk and Mosul, but several bureau employees expressed
doubt that these offices will be operational by the October 1, 2011, deadline.

        The Department appears to be making a conscious effort to address staffing at Embassy
Baghdad, its consulates, and branch offices. In preparation for its first rightsizing exercise,
Embassy Baghdad has been reviewing mission requirements and staffing. It is scheduled to
complete its first rightsizing report by June 2011, but the report will address only embassy
staffing. The office of the Under Secretary for Management has held several meetings with all
relevant Department offices and bureaus, as well as with the embassy, to review the staffing
numbers for the rest of the country and to ensure that everyone is in agreement. The most recent
meeting was held in mid-February 2011.

       Iraq staffing is a mix of Foreign Service, traditional Civil Service, 3161s, and contractors.
The embassy has hired a number of Iraqis; the locally employed staff is augmented by temporary
duty local staff from other overseas missions. The bureau recently implemented a program to
hire non-Iraqis to work in Baghdad on a contract basis, in order to phase out the more expensive

                                          30
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

temporary duty locally employed staff program. This third-country national program will later be
phased out, as they are replaced by Iraqi staff.

        In October 2010, the OIG’s Compliance Follow-up Review of Embassy Baghdad, Iraq
(Report No. ISP-C-11-08A) recommended that the Department establish a dedicated,
ambassador-level Iraq transition coordinator with a full-time staff. The Secretary of State
appointed the Iraq Transition Coordinator in mid-February 2011. Members of the EX Iraq team
were pleased with the selection, as the new coordinator has experience in Iraq. This coordinator
gives the Department a senior-level official working solely on the transition, who should be well-
placed to work with senior-level DOD officials.

        Virtually all EX Iraq team members the inspectors spoke to complained about the Iraq
policy office’s lack of communication, coordination, and transparency. Team members echoed
complaints from other NEA offices that the Iraq Policy Office does not share information, does
not clear reports and briefing material with relevant offices, and is poorly organized. In a process
as important and complicated as the Iraq transition, policy decisions affect management
planning. The reverse is also true. This report addresses this lack of communication and issues a
recommendation about it, in the Iraq Office section.

        The Iraq Common Operations Planning & Implementation System Web application is an
information and project management system that includes staffing numbers and task
management. The staffing information can be sorted in numerous ways, including by the number
of beds, desks, and offices required, and allows the numbers to be compared easily against
maximum capacities. It also links timelines, responsibilities, and task management, and includes
decision trees for notifications, approvals, and clearance, as well as multiple-view reporting. A
hiring and bidding module, scheduled to be deployed in summer 2011, will allow the bureau to
track bidders by title, grade, or name. The software also will act as the central repository for
transition-related data and will include a library of documents related to the transition. EX plans
to adapt this software for use in the planning for the Afghanistan transition.

        The nonhierarchical, country-specific design of the Iraq EX, headed by a separate EX
deputy director, allows the staff to focus on Iraq planning, while at the same time allowing the
rest of EX to concentrate on the bureau’s other missions without the distraction of Iraq. Once the
work on the transition is completed, it will be time to reintegrate the group into the rest of EX. It
is a model that could easily be adapted for use in other crisis situations.

Regionalization and Management Initiatives

       EX is a strong proponent of regionalization and moving activities that can be handled at a
distance to another embassy or regional center. While the economies of scale it produces can
save money, regionalization can be especially useful in danger-pay missions, as it can reduce the
number of employees in the country. EX management has pushed its missions to use the Post
Support Unit in Charleston to process all travel vouchers and has strongly urged them to
outsource other voucher processing to the support unit. Some 51 percent of the support unit’s
work comes from NEA and SCA missions; Baghdad, Riyadh, and Manama are among the
support unit’s top clients.
                                                 31
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



        The Regional Service Center in Frankfurt is providing locally employed staff position
classification services for Embassies Kabul and Islamabad. Embassy Baghdad also receives off-
shore position classification services from the Iraq Support Unit in Amman. The Regional
Service Center in Frankfurt also continues to provide support to the Central Asian countries that,
at one time, had been within the Bureau of European and Eurasian Affairs. EX is working with
the European bureau to develop a service-level agreement under which Frankfurt would provide
locally employed staff position classification for all NEA and SCA missions. EX also has
partnered with the Bureau of East Asian and Pacific Affairs on a regional training center. Under
this agreement, the bureaus pay for training based on the number of employees who attend.

        EX is working with IRM to develop ways to regionalize classified computer network
support, in order to reduce the amount of classified equipment that is kept at high-threat
missions. It also is looking at ways to store data from Pakistan and Afghanistan at another
location.

Human Resources

Domestic Human Resources

       The domestic HR section is dysfunctional for several reasons: understaffing, excessive
workload, and a lack of adherence by some NEA and SCA managers to prescribed work
processes. No one could have projected, when the Foreign Service Institute, Human Resources
Division, (FSI/HR) agreed to become NEA and SCA’s service provider, that the workload would
increase exponentially due to the U.S. diplomatic presence in Iraq and Afghanistan. HR
resources have not been reinforced to deal with this surge. Both the management teams in NEA
and FSI are cognizant of these challenges, but so far have been unable to make much headway.

       Despite the efforts of both FSI/HR and the NEA and SCA HR division, NEA and SCA
customers do not receive satisfactory service. Customer complaints were many, the most striking
of which involved slow recruitment (which in some cases took over a year) and awards
processing. Recruitment problems have been chronic for at least 2 years; awards processing was
backlogged for some 5 years. Several factors relating to the poor performance are discussed
below.

        At the specific request of NEA-SCA/EX, FSI/HR became the service provider for the
bureau in October 2006. In 2008, NEA and SCA detailed its domestic HR specialist staff to FSI
with the intent to work and gain experience in a bureau with full delegated authority. While
having no impact on the substance of operations, this arrangement limited NEA’s and SCA’s
influence in the management chain of command for domestic services and the bureaus’ authority
over most domestic HR services ceased at the deputy director level, which became an obstacle to
leveraging FSI/HR’s function. The addition of a Foreign Service officer as the NEA-SCA HR
director in August 2010 has improved the situation somewhat, but much work remains to be
done.


                                         32
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The domestic HR section is divided between core and noncore services and reports to the
NEA/SCA HR director. Core services are provided mostly by FSI/HR and include position
classification, staffing and recruitment, and performance management. Noncore services are
provided by the domestic HR section and include employee programs, such as awards and
training.

        Morale among the domestic HR section employees is poor. This is best exemplified by
the section’s inability to keep qualified personnel. For most of 2009 and 2010, the domestic HR
section had a severe shortage of staff. In early 2011, the staff had almost disappeared. At the time
of the inspection, of the 10 HR supervisory and specialist positions embedded from and detailed
to the shared services provider, four (including the supervisor) were vacant, and three
incumbents (on board for less than a year) were leaving. Of the three remaining, the most tenured
was a student on board for 8 months.

        The domestic HR section struggles to keep up with unanticipated increases in workload.
Prioritization of hiring actions is problematic, since some NEA and SCA managers describe
nearly all hiring actions as urgent, and desperately needed positions remain in the queue.
Domestic HR staff has not had time to pursue training and reflect on strategic requirements.
Staffing and workload factors detract from the EX’s efforts to manage both bureaus’
performance evaluation programs. (See the Management Controls section of the report for a
discussion on performance management.)

        Many HR specialists complained of a chaotic working environment created by senior and
other managers operating outside the normal chain of command. Many described interactions
with NEA and SCA managers as harsh and antagonistic, including efforts to influence the
recruitment process. Five domestic HR employees cited this atmosphere and poor morale as a
factor in seeking other employment. The Management Controls section of the report discusses
these issues further.

       FSI/HR’s oversight and organizational analysis of domestic HR operations has not
resolved the domestic HR section’s problem. To date, human capital accountability reviews have
been limited in scope and have not encompassed the full range of FSI/HR activities. Despite
some progress, the domestic HR section is still far from operationally sound.

Recommendation 32: The Bureau of Human Resources should assess the domestic human
resources services for the Bureau of Near Eastern Affairs and give the bureau recommendations
for its future services. (Action: DGHR)

Recommendation 33: The Bureau of Near Eastern Affairs, in coordination with the Bureau of
South and Central Affairs, the Bureau of Human Resources, and the Foreign Service Institute,
should evaluate domestic human resources delivery options, select a human resources service
provider, and sign a relevant service-level agreement with measurable service standards for all
categories of service. (Action: NEA, in coordination with SCA, DGHR, and FSI)



                                          33
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Overseas Division

       Foreign Service Assignments

       The EX Foreign Service assignments process is generally working well. The busy
Foreign Service assignments office includes eight assignment officers, specialists and assistants,
including the unit chief, to cover 33 missions and provide some support to Afghanistan and
Pakistan. Two other members of the assignments staff handle only Afghanistan and Pakistan. (A
separate EX team handles staffing for Iraq.) This office also works to find temporary positions
for evacuees returning to Washington from missions that have been closed or are on authorized
or ordered departure. The staff members work well together and have good relationships with the
embassies and other offices involved in the assignments process. They were pleased with the
supervision and support they receive from EX supervisors.

        Afghanistan, Iraq, and Pakistan (AIP) are the Department’s highest staffing priorities. To
further this goal, the Department now has two assignment seasons: June of each year for AIP
positions, and early fall for all other positions. This procedure, which allows the three AIP
missions to choose their candidates before the regular bidding season begins, has meant that a
large percentage of AIP positions are filled within a few months. By mid-March 2011, the
bureaus had filled 92 percent of the summer 2011 Afghanistan positions, 91 percent in Iraq, and
95 percent in Pakistan.

        Staff working on AIP assignments expressed concern about the shrinking pool of Foreign
Service volunteers who have not already served a tour in one of these three missions. While Civil
Service employees can volunteer for AIP assignments, Department rules make it difficult to
assign them to positions for which Foreign Service officers have applied, even if the Civil
Service employee is more qualified. As the number of available Foreign Service officers
continues to shrink, being able to take advantage of the Department’s talented Civil Service staff
will become even more important.

        In an attempt to improve continuity, Embassies Kabul and Islamabad have proposed that
the tours for those missions be increased from 1 year to 18 months or 2 years. Opinions
regarding longer tours were mixed. While they would provide better continuity than the current
1-year tour, many were concerned that this change would reduce the number of volunteers. Some
suggested that front office, section supervisors, and certain other key positions be changed to 2-
year tours, while all other tours remain at 1 year. AIP posts have substantial service recognition
packages, a 15 percent incentive pay bonus for extending for a second year, and a policy of no-
fault curtailment. The Department also recently implemented continuity tours, in which
employees spend 1 year in an AIP mission and 1 year in a related position outside of those
missions.

        Recruitment for the three AIP missions does not appear to have seriously affected filling
positions at the majority of other NEA and SCA missions. However, both bureaus have problems
recruiting for non-AIP missions that are considered especially difficult or dangerous. Employees
at non-AIP missions receive neither the recognition nor the hardship differential and danger pay
that those working in AIP missions receive. These staffing problems are exacerbated by a liberal
                                               34
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

curtailment policy, which allows an employee to curtail from a mission at any time in order to
serve in an AIP mission.

         The Department has a shortage of office management, information management, and
facilities management specialists. Of the 44 overseas vacancies in NEA and SCA, 19 are either
office management specialists or specialists in the information management field. There is also a
shortage of Foreign Service officers who are fluent in French, Arabic, Hebrew, and other
languages used in these regions. Of the 32 overseas vacancies remaining in NEA (not including
Iraq) as of March 2, 2011, 19 are language-designated. Employees who are comfortable in the
regional languages are especially important in these critical regions.

        In order to improve coordination with the field, the HR division has begun holding
quarterly conference calls with the overseas HR offices to discuss regional issues. These
conference calls generally deal with topics that are of interest to specific missions and provide a
forum for the HR officers to share ideas and information with others dealing with the same
issues. These calls also have increased the HR division’s visibility with the field.

       Post Management Office

        The post management office works well, despite a heavy workload and the absence of
several staff members. The office is divided into three sections. The Afghanistan and Pakistan
section has six post management officers (PMO) and two PMO assistants. The second section,
which handles all countries but Afghanistan and Pakistan, has seven PMOs, one supervisory
PMO, and two PMO assistants. Two members of that section were on temporary duty in
Afghanistan and Pakistan during this inspection, and one position was vacant, leaving it with
only seven employees to handle 28 missions. A third section handles post management for Iraq.
Once the office is fully staffed, they anticipate that they will be able to adequately handle day-to-
day operations. However, the lean staffing level provides little opportunity for long-range
planning or projects, and it does not provide enough staff to handle evacuations and other time-
intensive crises overseas. When these occur, the office runs the risk of not giving smaller
missions the attention they need.

        The PMOs provide management liaison between the overseas mission and Department
bureaus and offices. Along with the EX assignment officers, the PMOs work with evacuees
coming out of missions that are on ordered or authorized departure. During the inspection, there
were two missions on ordered departure and one on authorized departure. PMOs regularly staff
the task forces set up to handle crises; there were two task forces during this inspection.
Accordingly, several PMOs were working 12-hour days to staff task forces, respond to issues
from the embassies and consulates overseas, and work with the evacuees returning to
Washington. A number of PMOs expressed frustration at the lack of standard operating
procedures and document templates related to the evacuations and the work they do on behalf of
the returning evacuees. The Department’s Crisis Management Support Office has posted
templates on its SharePoint site, but these were said to be out-of-date. While the PMOs agreed
that each evacuation is different, there are enough similarities to make up-to-date and easily
accessible templates and standard operating procedures useful.

                                          35
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

           Informal Recommendation 11: The Bureau of Near Eastern Affairs should develop
           and post on its SharePoint site, standard operating procedures and document
           templates related to the actions required in the event of evacuation from an overseas
           mission.

        Overseas staff generally expressed satisfaction with the service the PMOs provide,
although several mentioned that communication could be improved. This issue appeared to be
related, in part, to a change in PMOs as well as the staffing shortage within the office.

Awards Program

        EX manages the awards program for NEA and SCA. Until recently, EX was not
processing awards, but it now is clearing up the enormous backlog of unprocessed awards dating
back several years. Instead of processing awards as they arrived, the staff had put them into
boxes or desk drawers to be processed when time permitted. In some cases, the awards were
never entered into employee personnel folders; in other cases, the award certificates or payments
were never provided, or the nominations were never considered by the bureau awards panel. In
2010, the office brought in staff from other bureaus to work evenings and weekends to eliminate
the backlog. After the awards processing was transferred to the Human Resources Service Center
in the Bureau of Human Resources, the EX staff discovered yet more boxes of unprocessed
awards. Between December 2010 and February 2011, the shared services office processed 2,200
overdue awards. They anticipate it will take another 4 to 6 weeks of work to complete this
project.

       In October 2010, EX issued a policy requiring that the electronic bureau award program
be used to process overseas and domestic award nominations. There had been no systemic and
orderly process for award nominations prior to the issuance of this policy.

        A member of the NEA awards committee, which approves all superior honor awards,
expressed concern about the number and quality of the award nominations the bureau is
receiving. The committee recognizes the possibility that so-called “award inflation” is an issue
that needs to be addressed throughout the bureau.

Entry-Level Officer Mentoring Program

        The bureau has 15 entry-level officers; three work in EX. It also has many newly hired
traditional and noncareer appointment (3161) Civil Service employees, most of whom have
never worked in the Department before. The bureau has held some brown bag sessions on topics
of interest to entry-level officers and in December 2010 it instituted a program to allow Civil
Service employees to fill temporary vacancies at posts. However, there is no formal mentoring
program. This type of program is especially important in a busy bureau such as NEA, where new
employees can easily become frustrated or intimidated. NEA management will formalize a
mentoring program for all bureau employees with less than 5 years of service with the
Department.


                                          36
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Equal Employment Opportunity

        The bureau is generally attentive to and supportive of Equal Employment Opportunity
matters, but EX could better manage cases as they arise in missions abroad. There are many
cases from Iraq and Afghanistan that require collaboration in EX. For example, EX could
proactively weigh in on transfer possibilities and offer participation in alternative dispute
resolution. Regular meetings between each regional deputy executive director and Office of Civil
Rights representatives would help improve communication between the two offices.

           Informal Recommendation 12: The Bureau of Near Eastern Affairs should require
           regional deputy executive directors to meet quarterly with Office of Civil Rights
           representatives to develop case strategies.

Excepted Civil Service Hiring

        A single personnel and operations office (the 3161 Personnel Office) serves both the Iraq
Strategic Partnership Office (ISPO) and Pakistan and Afghanistan Support Office (PASO). This
office works well. ISPO and PASO are temporary offices created by executive order, which
allow the Department to hire excepted Civil Service employees to support its efforts in Iraq,
Afghanistan, and Pakistan.

        Executive orders created ISPO to facilitate the final stage of the Iraq transition and PASO
to strengthen governments in Pakistan and Afghanistan. The Secretary appoints the director for
each office. The ISPO director position had been vacant for several years at the time of this
inspection; the PASO director, a 3161 employee, works in S/SRAP. NEA and SCA are
stakeholders in both temporary offices. ISPO and PASO 3161 employees are stationed
domestically in NEA, SCA, the 3161 Personnel Office, and in Embassies Baghdad and Kabul.

        Although serving two distinct entities and funded with separate allotments, the 3161
Personnel Office is viewed largely as one office. The acting office manager is careful to keep the
two entities at arm’s length, so as not to commingle assets and funds. This joint office provides
synergy and cost savings. The 3161 Personnel Office has three sections: recruiting, employment,
and personnel, each led by a senior specialist. All sections do the usual tasks of a traditional
federal personnel office. However, there is no program to record employee performance
management. This issue is described in the Management Controls section of the report.

       The 3161 Personnel Office does not have rights and privileges as a fully delegated HR
organization, and thus its actions are approved elsewhere in the Department. Currently this is
done by FSI/HR, which also determines salaries and authorizes and classifies positions.
However, there is no operative service-level agreement in place defining the relationship
between the 3161 Personnel Office and FSI/HR, and customer service standards. According to
the 3161 Personnel Office staff, FSI/HR’s turnaround for all its functions takes too long, which
prevents the office from optimizing its resources to meet program goals. These delays, staff told
the OIG team, mean that offices in Washington and abroad risk losing candidates.


                                          37
                              SENSITIVE BUT UNCLASSIFIED
                                      SENSITIVE BUT UNCLASSIFIED

Recommendation 34: The Bureau of Near Eastern Affairs, in coordination with the Foreign
Service Institute and the Bureau of Human Resources, should negotiate a service-level
agreement, including customer service standards, with the chosen domestic human resources
service provider. (Action: NEA, in coordination with FSI and DGHR)

Financial Management

        According to OIG questionnaires, the financial management office adequately serves
NEA’s and SCA’s domestic and overseas offices. It received good scores for financial
management, budgeting, and travel services. The only complaints concerned the transfer of funds
inside or outside of NEA, and the timeliness of some travel services (discussed below). During
the course of the inspection, however, the office had great difficulty producing status of funds
reports.

         The section, headed by an FS-01 Foreign Service officer and a GS-14 Civil Service
deputy, handles a huge amount of funding from many different appropriations and
reimbursements. In FY 2010, the office allotted funds and incurred obligations against 29 NEA
and 20 SCA appropriations, and incurred liquidations against an additional 90 NEA and 80 SCA
appropriations. Although the total amount of funding the office oversees has not changed over
the last 4 years, SCA’s share of the funding has increased, while NEA’s share has decreased. The
OIG team was unable to conduct more than a cursory review of transactions occurring in NEA
and SCA appropriations. While most staff have been in the office for many years and are
familiar with the allotments and systems for which they are responsible, the office had difficulty
at a macro level identifying the status of funding under its control. Problems stem from lapses in
training; insufficient leadership; and, shortcomings with the unwieldy Global Financial
Management System (GFMS) Data Warehouse that the Department uses domestically. The
section also needs to clarify its policy on supporting documentation for obligations; make sure it
has appropriate points of contact for all obligations; obtain clarification from the Bureau of
Resources Management (RM) on its use of Military Interdepartmental Purchase Requests
(MIPR); and improve controls over travel.

Bureau Status of Funds Reports

        The office had tremendous difficulty providing to the OIG team, an overview of the
status of each appropriation and allotment controlled by the bureau. 7 This situation limited the
OIG team’s ability to comment on the bureau’s proficiency in managing its funds, budgeting,
and monitoring unliquidated obligations. Monitoring is important to ensure that needed funding
is not allowed to expire; to develop budgets; to ensure that transactions with other bureaus and
offices are processed correctly; and to ensure that section staff are adequately monitoring the
funds for which they are responsible. High-level status of funds reports are particularly important
for NEA and SCA, given the large number of appropriations and allotments they deal with.



7
    For clarity, this report uses the term “appropriation” for funds allotted by RM to the bureau and the term
     “allotment” for funds suballotted by the bureau to its missions or domestic suballotments.
                                                  38
                                      SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Following inspectors’ request for this information, some office staff started to develop a
spreadsheet on the status of funds, by running reports on the GFMS, Budget Resource
Management System, and Regional Financial Management System (RFMS) Consolidated
Overseas Accountability Support Toolbox (COAST). Specifically, they:

   •   ran GFMS budget query detail reports, to determine the status of the overall
       appropriation;
   •   ran BRMS Budget Resource Management System reports, to determine how much
       funding was allotted to each post;
   •   ran RFMS COAST reports, to determine the status of each overseas allotment;
   •   ran a GFMS report, to determine the status of domestic allotments; and,
   •   started entering the information into an Excel spreadsheet.

        The office estimated that it took 64 hours to create a spreadsheet that ultimately provided
the total funding available and unliquidated obligations for all allotments. However, since the
spreadsheet did not indicate how much money within each allotment was obligated or available,
the OIG team was unable to determine the percentage of obligations remaining unliquidated or
the amount of funding still available. The spreadsheet also did not show the status of funding at
the appropriation level. The office could have produced this information by following the above
steps for each appropriation.

       This is not the first time the section has struggled to monitor the status of its
appropriations and allotments. When a capable contractor arrived in EX in 2008, he discovered a
$20 million discrepancy between RM and NEA’s Iraq 2006/2007 Economic Support Fund
balance. He initiated meetings among EX, the NEA Iraq office, and RM, and the OIG team had
been told the problem was resolved.

        According to the GFMS helpdesk, the best report for this high-level information is a
GFMS Data Warehouse report called the “Modified High Level Budget and Spending Extract.”
Neither the head of the financial management office nor her deputy was familiar with this report,
but one analyst in the section had seen it while working in a previous job and ran two reports for
each bureau: one at the appropriation level and one at the allotment level. The appropriation-
level reports for NEA and SCA, respectively, were 30 and 26 pages long, mostly due to
seemingly unnecessary headers inserted by the program between every appropriation. The
allotment-level reports were 1,605 and 1,179 pages long, also due to unnecessary headers and
other columns. It took the analyst 6 hours to run the reports. Although GFMS reports can be
modified to make them somewhat easier to run and read, the modified reports are not available
automatically; the analysts would need training on how to modify the reports, and then could
modify them at their own workstations.

        The difficulty and amount of time needed to obtain this information domestically is in
contrast to the capabilities of the RFMS COAST system that the embassies use to monitor their
overseas allotments. COAST uses a standard menu and drill-down capability that allows users to
easily view and print a list of all of its allotments, along with the status of each allotment. The


                                          39
                              SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

lists do not contain unnecessary headers or columns, are easy to review, and can be generated by
users with almost no training.

        According to an RM representative, GFMS and RFMS are designed to meet different
needs 8 and for that reason, the GFMS Data Warehouse provides users an expansive amount of
financial information that can to be tailored to meet specific needs, while RFMS COAST
provides more of a one-size-fits-all capability. According to the RM representative, once
domestic users invest the time needed to identify requirements and then work with the GFMS
helpdesk to build the appropriate reports, the reports can be run more quickly and in a more
readable format. RM encourages bureau staff to attend monthly and quarterly GFMS Data
Warehouse meetings and read software releases.

        Given that RM does not have plans in the near term to create a shorter, more readable,
capped report to improve the bureaus’ ability to review their status of funds, the EX financial
management office needs to work with RM to determine the best reports to run and make
modifications to produce an overview of the status of funds. Shortly after the OIG inspection, the
office started working on their GFMS reports, and RM indicated that it would assist the bureau
in producing an overview of the status of its funds. The EX director is aware of the accounting
system’s deficiencies and noted that the Department’s financial management systems rarely yield
reports to help guide management decisions; in fact, the amount of time and work required is a
disincentive to request financial analysis.

        Informal Recommendation 13:            The Bureau of Near Eastern Affairs should require
        its relevant financial management staff to collaborate on the best report format for
        reviewing the status of its funds at a macro level.

Recommendation 35: The Bureau of Near Eastern Affairs, in coordination with the Bureau of
Resource Management, should determine the best reports to run and modify to obtain an
overview of the status of its funds; train relevant financial management staff to run these reports;
and then run, analyze, and act upon status-of-funds reports at both the appropriation and
allotment levels quarterly. (Action: NEA, in coordination with RM)

        The office’s deputy runs day-to-day operations and does a good job ensuring that funding
is checked and obligations processed. The deputy also asks analysts to check up on unliquidated
obligations periodically, although it did not appear that these were checked regularly for all
appropriations and allotments. Analysts in the section have very different levels of knowledge
regarding the bureau’s appropriations and the capabilities of the domestic accounting systems.
The section chief is not proficient in using the domestic accounting systems and often does not
check work produced by analysts in her section. Some analysts were unfamiliar with how non-
traditional funding (such as the Economic Support Fund and supplemental funding) was
processed and reported in GFMS, which limits their ability to back each other up. A few analysts
said official GFMS status of obligation reports were not useful, because they either did not
include a document description or the document description showed up on multiple lines,

8
 RFMS is a direct allotment accounting system whereas GFMS contains modules for tracking commitments, fixed
assets, billings, and acquisitions and it is connected with 25 other domestic systems.
                                             40
                                 SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

increasing the size of the report. However, the office had not contacted RM to determine if this
capability existed in a different report or if additional descriptive information could be entered at
the time of the obligation, allowing it to display in some capped report. Collaboration among the
staff on which reports are needed and used could enable staff within the executive office to back
each other up.

        Informal Recommendation 14:          The Bureau of Near Eastern Affairs should develop
        a list of needed reports, determine which reports each analyst uses, look at the
        modifications to each of these reports, provide training to the staff, and, if necessary,
        contact the Bureau of Resource Management for assistance.

Support and Points of Contact for Obligations

        The OIG team had difficulty tracking down the office and individual responsible for a
few obligations held in domestic allotments. EX maintains a list of contracting officer
representatives for all of its contracts, to facilitate timely approval of those invoices. However,
the office does not maintain similar lists for other obligating documents, such as grants and
interdepartmental obligations and intragovernmental obligations. Funding for these mechanisms
is often provided up front, but the Department retains responsibility for ensuring that the
programs are executed.

        Budget officers in EX also do not maintain supporting documentation for all obligations.
According to office staff, purchase orders are maintained in GFMS; grants are maintained by
program offices; interdepartmental and intragovernmental obligations are maintained by budget
analysts for 3 years; and travel orders and vouchers are maintained in the online E2 Solutions
system. Some contracting documents are also available in the Department’s procurement
program, and some grant documents are available in the payment management system.
Department guidance does not require bureau budget offices to maintain support for all
obligations. However, not all program offices maintain adequate documentation for the
obligations and programs for which they are responsible. As noted in the Foreign Assistance
section of this report, the Iraq office has struggled to compile its files. Some employees in that
office are still unclear about the programs and obligations related to the Iraq FY 2006-07
Economic Support Fund, even though EX has briefed a number of staff in that office in the past.
Turnover in the Iraq office and in Embassy Baghdad has not helped this situation. EX could not
locate any cuff records related to the Iraq FY 2006-07 Economic Support Fund appropriation,
although some of the funding may have been reappropriated. EX could run status-of-obligations
reports to identify all obligations.

Recommendation 36: The Bureau of Near Eastern Affairs should reconstruct and determine the
status of its Iraq Economic Support Fund appropriation from FY 2006-07. (Action: NEA)

        Given the amount of support EX provides to Afghanistan, Iraq, and Pakistan, staff
turnover at those locations, the large amounts of foreign assistance funding received by the
bureaus, and the number of interagency and interdepartmental obligations, the office needs to act
as a back-up repository for certain obligating documents, including grants and interagency and
interdepartmental obligations. To his credit, the executive director has pushed offices to go
                                                 41
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

paperless. Maintaining documentation electronically in a well-structured format will provide
needed duplication, to ensure that program offices are aware of and monitor the programs and
obligations for which they are responsible. It also will reduce storage space needs and could
reduce the number of inquiries EX receives regarding obligations, such as those it receives from
the Charleston Financial Services Center related to Intra-governmental Payment and Collection
Program payments. Storing those obligating documents in a program (such as GFMS or the
Department’s domestic procurement program) that is accessible to the Charleston Financial
Services Center could reduce inquiries.

Recommendation 37: The Bureau of Near Eastern Affairs should develop a policy that outlines
where all obligating documents will be maintained, and how they will be maintained, including
the specification that obligating documentation should include the name and office of appropriate
points of contact. (Action: NEA)

Use of Military Interdepartmental Purchase Requests

      NEA and SCA often use MIPRs to provide funding to DOD, particularly in Iraq,
Afghanistan, and Pakistan. According to 4 FAM 221.1 (b).:

       Financial management staff in Department bureaus and posts may not allot or
       transfer funds to other U.S. Government agencies. This includes transferring
       funds to the Department of Defense via a MIPR. All fund transfers to other
       agencies must be processed through the Office of the Deputy Assistant Secretary
       for State Programs, Operations and Budget (RM/BP).

However, according to EX staff, the portion of the Foreign Affairs Manual dealing with this
subject is outdated, and MIPRs are often the only form of payment DOD offices will accept.

         A representative from RM’s Global Financial Operations Directorate reported that
MIPRs could not be used as obligating documents. Additionally, MIPRs are not included in the
list of commonly used obligating documents in 4 FAH-3 H-52.3. Staff in EX indicated that
memoranda of agreement, memoranda of understanding, or reimbursable agreements always
support the MIPRs and serve as the actual obligating documents. The OIG team noted, however,
that MIPR numbers are used as obligation numbers; MIPRs did not always refer to the
underlying documents; and fund sites and fund availability certifications appeared on MIPRs, not
the underlying documents. When asked who was responsible for overseeing MIPR obligations,
EX staff provided inspectors with points of contact specified on the MIPRs. According to 1 FAM
226.2, RM’s Financial Policy, Reporting and Analysis Directorate develops and issues
Department-wide financial policy.

Recommendation 38: The Bureau of Resource Management, in coordination with the Bureau of
Near Eastern Affairs, should review the circumstances under which the Bureau of Near Eastern
Affairs has used Military Interdepartmental Purchase Requests to obtain Department of Defense
services and either reissue guidance on the use of Military Interdepartmental Purchase Requests
or take steps to correct obligating documents. (Action: RM, in coordination with NEA)

                                         42
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Travel

        NEA staff is generally satisfied with the travel support provided by the EX. Most, but not
all, complaints were about staff outside of EX who are responsible for entering information into
the online E2 Solutions system. One contractor handles all of NEA’s and SCA’s travel; in FY
2010, it amounted to more than 1,000 trips. This individual makes sure that all bureau staff are
entered into E2 and GFMS; maintains a log of all individuals’ travel by office; makes sure all
travel voucher documentation is included in E2; periodically contacts individuals with
outstanding travel orders and advances; reviews support for business class tickets; and trains and
assists bureau staff who enter information into E2. It is a daunting amount of work for one
person, especially given that others in the section do not appear to be fully occupied. In the past,
EX had separate analysts for each bureau. The office’s efforts over the last 9 months to fill the
second position so far have been unsuccessful.

           Informal Recommendation 15: The Bureau of Near Eastern Affairs should assign
           select travel responsibilities to the other analysts in the travel unit and cross-train
           them on the duties of the contractor responsible for travel.

        In prioritizing the work, the contractor focuses first on ensuring that travel orders are
completed so people can travel. The travel logs by office also appeared to be well maintained.
Other tasks, however, have not always been completed. RM recently reviewed travel vouchers
and found problems in 6 of the 24 vouchers reviewed. Problems included a lack of supporting
documentation, Internet and actual lodging charges without authorization, an improper
reimbursement of $19.46 for children’s books, and a 3-month delay in a voucher’s approval. The
OIG team also noted that travel orders in E2 and the travel spreadsheet were not regularly
reconciled with travel order obligations in GFMS; the bureau does not enforce use of the
government-authorized charge card, as required in 4 FAM 463.3-2; and travel advances are not
followed up on time. According to a GFMS report, open NEA and SCA travel advances totaled
$96,000, with some dating back to 2007. However, the open travel advance report did not
include a 2006 travel advance that RM is researching, which brings into question the report’s
accuracy. According to the office’s deputy, the section has difficulty matching the travel
advances and orders in GFMS with those in E2, because officers sometimes submit travel
vouchers overseas and the transactions do not always post directly to the appropriate travel
obligation.

Recommendation 39: The Bureau of Near Eastern Affairs, in coordination with the Bureau of
Resource Management, should identify all travel advances in both Global Financial Management
System and E2 Solutions system that have been open for more than 30 days, query the
individuals, and seek reimbursement, if necessary. (Action: NEA, in coordination with RM)

           Informal Recommendation 16: The Bureau of Near Eastern Affairs should enforce
           use of the government-authorized charge card.




                                          43
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Domestic Services

        The Office of Domestic Services (ODS) comprises three sections: the General Services
Division (GSD), the Orientation and In-processing Division (OIP), and the Information Services
Division. A new ODS director position was created and filled in summer 2010 to better align
information services and general services and, in the end, the customers’ needs. The ODS
director also provides strategic planning and oversight of OIP, as part of a long-term goal to
expand OIP’s support to high-threat posts.

General Services Division

       GSD performs satisfactorily, although some customers criticize its performance. Its
responsibilities include procurement, space management, equipment maintenance, liaison with
the Bureau of Administration on major construction/remodeling, office supplies, mail,
visa/passport processing, and control of non-expendable property. Those surveyed identified as
problematic the division’s responsiveness to procurement requests, office maintenance and
upkeep, and the quality and maintenance of furniture and equipment. In addition, several
renovation and construction projects have been stalled for unreasonably long periods of time.
The deployment of a newly designed and highly effective work order system should help to
remedy the situation and improve customer satisfaction. The system is designed to keep the
requesting office, the service provider, and the GSD staff fully informed of the status of
customer requests. This inspection took place as EX offices were being renovated. As a result,
some employees were relocated to swing space in Department annexes or crowded more closely
together.

        Generally, GSD acts as an intermediary between customers and actual Department
service providers, such as the Offices of Acquisitions, Real Property Management, and Facilities
Maintenance Services. GSD does assist customers more directly in the preparation of
procurement requests and renovation/construction scopes of work. Both bureaus’ last two annual
property certifications disclosed shortages under the 1 percent threshold, and thus avoided
exception reporting requirements. A recommendation concerning the purchase card program is
made in the Management Controls section of this report.

Orientation and In-Processing Center

        OIP assists all U.S. Government employees and contractors under chief of mission
authority deploying to Afghanistan, Iraq, and Pakistan. In addition to handling the in-processing
of these employees, it also provides off-shore support to reduce the administrative footprint at
these high-threat posts. The center performs its mission well. It benefits from an enthusiastic and
motivated office director. The director and deputy director operate five teams: two for
Afghanistan (one for the Department and one for other agencies), one each for Iraq and Pakistan,
and one travel team. Only three people in OIP are direct-hires (under 3161 authority): the
director, deputy director, and a program assistant. The remaining 11 are contract employees.

      On paper, the OIP director and deputy report to the ODS chief and a governance board
made up of senior managers from EX and S/SRAP. Under current conditions as 3161 employees,
                                             44
                            SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

however, they have neither a rater nor a reviewer. Despite this limitation, by all accounts the
center is a solid, well-appreciated performer. Customer surveys reflect that customers are happy.

Information Services Division

        The EX technology team, with more than 20 years of network and customer institutional
knowledge, is operating in crisis management mode, supporting customers in NEA, SCA,
S/SEMEP and S/SRAP (Pakistan and Afghanistan desk). Customers who experience frequent
system outages are reluctant to let go of EX’s dynamic support team, since the customers are
dissatisfied by the IRM Information Technology (IT) Service Center’s slow response. The OIG
team determined that the IT problems cannot be attributed solely to the IRM consolidation
program, but also involve antiquated Department infrastructure, which may take years to fix.

        In preparation for this inspection, OIG inspectors requested accounts on the unclassified
and classified networks, and experienced IT issues that were similar to those that customers in
NEA and SCA offices face. Recent OIG inspection reports in the Bureaus of East Asian and
Pacific Affairs, Western Hemisphere Affairs, European and Eurasian Affairs, and African
Affairs have raised IT consolidation issues. An OIG team recently evaluated the IT consolidation
program, and in January 2010, made several recommendations regarding technician skill sets, the
handling of customers’ requests, roles and responsibilities, information security management
duties, and weak communication within the organization. 9 Several of those recommendations
remain open and currently are with IRM for compliance. While the issues facing NEA and SCA
are the same as those experienced by other Department bureaus, in NEA these problems are
compounded by repeated crises in the region, during which everyone is dependent on technology
for quick communication and reporting.

          Customer Service and Support

        In questionnaires, several employees described staying late at the office only to lose their
work to system crashes. The classified network was no different and, in some offices, even
worse. In many cases, users on classified, thin-client workstations experienced disruptions,
because IRM had underestimated the number of thin-client workstations that would be connected
to the servers, resulting in computer crashes. To complicate matters, customers were using old
computers (some with 528 MB RAM). DS was pushing patches and scanning the computers
during the day, and IRM was also running antivirus scans during the work day. All of this
slowed the network and adversely affected productivity. After EX brought the matter to IRM’s
attention, updates now are being performed after working hours. During the course of this
inspection, the Global IT Modernization Program has stepped in and begun replacing the old,
unclassified computers with new models. The replacement of older classified network computers
was approximately 50 percent complete as the inspection ended.

      Many customers cited the IT Service Center for not resolving problems quickly;
however, some customers did not actually call or put in a work order request describing the

9
    Evaluation of the Information Technology Consolidation Project at the Department of State, Report Number
    AUD/IT-10-11, January 2010.
                                               45
                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

issue. Under the 2008 IT consolidation, IRM is responsible for certain duties, while EX handles
the rest. However, the two sections are still sorting out the responsibilities listed under the IRM
service level agreement with EX. Computer technicians reported that the situation is slowly
improving.

         At first glance, it may be easy to blame DS, IRM, Facilities Maintenance Service, or EX
for system and service deficiencies, but one major culprit is the Department infrastructure. In
conversation with EX and IRM, the OIG team learned that the Harry S Truman Building has
older CAT-5 cabling that needs to be upgraded to fiber optic cabling, as well as old switches that
need to be replaced. An air conditioning system failure also adversely affected computer
equipment. To compound the problem, office moves – which often occur with little notification
to IRM or the EX technology team – affect the equipment, network, and ultimately, the
customers. In some cases, an office renovation can affect employees in nearby offices.
Renovation and technical projects are abundant throughout the building, and will take years to
sort out and complete. In order to manage the multitude of issues affecting NEA and SCA, it is
important that EX, different sections of IRM, and Facilities Maintenance Services meet weekly
to sort through the problems and determine responsibility. Relations are good between the teams,
who, with the help of the IRM Liaison Division, are trying to resolve the numerous problems.

           Informal Recommendation 17: The Bureau of Near Eastern Affairs should direct
           the Executive Office to meet weekly with Bureau of Information Resource
           Management and the Bureau of Administration Facilities Maintenance Services
           counterparts to address customer issues.

        Many IT service technicians receive only on-the-job training and do not have the needed
IRM knowledge and capability. This dilemma was addressed in the audit report noted above.
Remedying the situation will take time, and it does not provide a solution to what customers
need now: working computers. The OIG team visited many offices during the course of the
inspection and identified one building (SA-1, or Columbia Plaza) that rarely experiences network
issues and appears to have available space. It may be possible for the computers in this building
to be made available to customers whose own computers crash. The location is not desirable for
customers located in other buildings, but it is a workable alternative.

       Innovation and Challenges

         EX has developed a state-of-the-art, icon-driven knowledge management intranet site that
is being replicated by BNET, the Department’s internal broadcast television station. At the time
of this inspection, the office launched a new telephone bill reconciliation and certification
tracking system, to automate a task that would otherwise take one employee the entire month to
do. Another feature of the site is a fully automated, paperless travel process that has vastly
simplified what was a complex and time-consuming procedure. The bureau has automated
systems to process, approve, and archive requests for business class travel, invitational travel,
and travel to Lebanon.

        NEA is a leader in digital videoconferences, having saved the Department $4 million in
travel costs over the past 3 years. There are several digital videoconference rooms that are
                                                 46
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

  heavily used and cleared for up to Secret level use. Nonetheless, during the immediate period of
  crisis in the NEA region, the Assistant Secretary was frustrated by his inability to have secure
  videoconferences on strategic issues with his chiefs of mission. Once, requested by the Secretary
  to organize such a conference at a Top Secret level, the Department had to ask the White House
  to assist, and even then the conference was a technical failure. During the OIG inspection, the
  equipment used by the Assistant Secretary was upgraded somewhat. However, even at the Secret
  level, it is not possible to have more than five or six embassies at one time online for
  videoconferencing.

         It is clear that the expense of providing new Top Secret digital videoconferencing
  platforms at all U.S. embassies would be prohibitive, and the security ramifications would be
  complex. However, it may be feasible to expand the capacity of NEA’s current, Secret-level
  videoconferencing system to enable as many as 15 or 20 (rather than 5 or 6) strong, clear
  connections. In the absence of resources to make this happen, a short-term alternative might be
  to combine videoconferencing with secure audio capabilities, wherever the secure video
  connection is not reliable.

  Recommendation 40: The Bureau of Near Eastern Affairs, in coordination with the Office of
  the Under Secretary for Management, should work with the bureau’s overseas missions to
  develop a secure digital videoconference deployment plan. (Action: NEA, in coordination with
  M/PRI)
(b) (5)




  Recommendation 41: (b) (5)



  Security Program

          One bureau security officer (BSO) manages the security programs for both NEA and
  SCA. The security programs for both bureaus conform to Department policy, with the exception
  of discrepancies discussed below. The BSO takes a proactive approach in implementing the
  security program. Being responsible for the security of two bureaus is arduous work, but the
  BSO is well experienced and capable of executing the program successfully. The BSO,
  employed by the DS Information Security, Applications Program Division, is responsible for
                                                 47
                               SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

    developing, inspecting, and advising on procedures and controls for safeguarding classified and
    administratively controlled information and for enforcing all associated security regulations. As a
    Civil Service employee, he provides the continuity needed for internal security within NEA and
    SCA.
(b) (5)




               Informal Recommendation 18: (b) (5)




                                              48
                                  SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

(b) (5)




          Informal Recommendation 19: (b) (5)


(b) (5)




                                      49
                          SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED
(b) (5)




    Recommendation 42:(
                       b
                       )
                       (
                       5
                       )

(b) (5)




             Informal Recommendation 20: (b) (5)



             Informal Recommendation 21: (b) (5)




             Informal Recommendation 22: (b) (5)



 (b) (5)




                                         50
                             SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

(b) (5)




          Informal Recommendation 23: (b) (5)




                                      51
                          SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Management Controls
        The bureau submitted its last annual management controls statement of assurance on
September 30, 2010. In the submission, the Assistant Secretary stated that he had “taken the
necessary measures to assure that an evaluation of the systems of management controls of NEA
was conducted in accordance with 2 FAM 020.” The memorandum also included a report on
significant management control deficiencies in posts within the bureau, along with corrective
action plans. In addition, the statement identified a significant deficiency at the domestic bureau:
a lack of staffing for the HR function, an issue this report also addresses. The related
management control weaknesses and other deficiencies in other offices are described below.

Performance Management

        Timeliness and completion of Civil Service performance evaluations and work
commitments has been an ongoing problem for NEA and SCA. Many Civil Service performance
evaluations remained outstanding for the 2009 cycle; NEA had seven outstanding, or 9 percent
of the total due. The 2010 cycle, in process during the inspection, showed no signs of
improvement. Many Civil Service employees complained about this situation, and the HR
service provider confirmed that the bureaus showed little concern for completing this important
function. In some cases, supervisors had left the bureaus without completing the evaluations for
which they were responsible. The performance evaluation function is important for employee
morale and for administering an effective personnel system. The OIG team members urged
bureau management to appeal to those responsible to complete this process. According to
regulations, each executive office is required to provide the Civil Service Human Resource
Management office with a list of delinquent raters, including the name of the delinquent rater and
the names of affected employees, no later 90 days after the end of the rating cycle (3 FAH-1 H-
2825.4).

Recommendation 43: The Bureau of Near Eastern Affairs should submit to the Bureau of
Human Resources a list identifying both delinquent raters and Civil Service employees whose
appraisal reports were late or not prepared. (Action: NEA)

Recommendation 44: The Bureau of Near Eastern Affairs should institute and enforce a policy,
with sanctions, that supervisors complete required employee appraisal reports prior to leaving
their positions with the bureaus. (Action: NEA)

Recruiting Practices

        Certain recruitment activities are viewed throughout the domestic HR office as unfair and
not transparent. This issue has affected morale in the office. The inspection team found that
managers engaged in potentially questionable personnel practices. Specifically, senior managers,
selecting officials, and others in NEA and SCA identified individual applicants to domestic HR
office specialists and recommended and encouraged their appointment.



                                          52
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

            Informal Recommendation 24: The Bureau of Near Eastern Affairs should counsel
            senior managers and the executive director regarding appropriate recruiting practices.
        Several employees complained of being put in awkward positions with respect to the
bureau’s recruitment practices. As a result, many in the domestic HR section are suspicious and
observe every employment-related development with a sharp eye, taking their energy and focus
away from the bureaus’ business. Also, prospective candidates may be discouraged from
applying for jobs. Moreover, these practices have had a damaging effect on the domestic HR
section’s control environment.

Recommendation 45: The Bureau of Near Eastern Affairs should issue a management
instruction clarifying the Department’s employment policy, with emphasis on allowed practices
by managers and selection officials, and on merit system principles. (Action: NEA)

Time and Attendance

        The OIG team received complaints of time and attendance abuses from a number of
offices in the bureau, the most common being that employees come to work late or leave early
without submitting leave documents. This occurrence and other examples of under-reporting
leave cause personnel costs to be overstated. In addition, time and attendance abuse creates
morale problems for other employees, as they often have to perform extra duties to cover those
who are not working the required number of hours.

        The bureau uses one of the methods for recording time and attendance prescribed by 4
FAH-3 H-524.2 (1): supervisor or timekeeper observation and recording of employee’s hours
worked. Timekeepers for NEA prepare time and attendance records by simply entering leave and
overtime amounts to programmed, regular 40-hour work schedules, without receiving employee
acknowledgements on authenticity. Supervisory approval occurred afterwards, en masse at the
office level, but not at the individual employee level. This method is not effective in carrying out
the bureau’s charges to ensure that leave and attendance records of all employees are maintained
in accordance with Department standards, and are recorded and reported in a timely fashion.
Those complaining of time and attendance abuse cited this lack of management oversight as the
main factor in allowing the condition to persist. Requiring individuals to report their own time
and attendance, with supervisory acknowledgement of the veracity of reported hours, will enable
the bureau to comply with Department regulations.

         Additionally, the bureaus do not require all employees to submit completed time and
attendance forms. The OIG team believes that time and attendance management control requires
documentation of employees’ affirmative declaration on correctness, including the statement: “I
certify this to be a true and correct submission of hours worked;” and a signature line for the
supervisor. The Department has an electronic form available (DS 4151 – Time and Attendance
Sheet 2011) which meets these requirements. It is one option the bureau should consider.

Recommendation 46: The Bureau of Near Eastern Affairs should implement procedures that
require the use of a time and attendance form signed by each employee and approved by the
employee’s supervisor and that require all employees to submit completed forms to a designated
timekeeper. (Action: NEA)
                                                53
                              SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED



Extensions and Performance Management for Temporary Employees

        The 3161 Personnel Office does not have a uniform policy for managing requests for
extensions and an adequate system of performance management or reference for future
employment of 3161 employees. The 2009 OIG inspection report of Embassy Baghdad
identified the same issues with respect to ISPO 3161 employees assigned to the mission. 10 The
report’s recommendations were implemented, but only with regard to employees stationed in
Iraq. Without a uniform policy for managing extension requests, the office leaves employees
uncertain about their eligibility to extend and confuses supervisors who need to decide whether
or not to support a request.

Recommendation 47: The Bureau of Near Eastern Affairs should publish a single policy on
managing extension requests for personnel stationed both in and outside Iraq. (Action: NEA)

        The 3161 Personnel Office does not have an adequate system of employee performance
management or reference for future employment for 3161 employees. Given that the Department
may need such employees in the future, the 3161 Personnel Office should maintain files on past
3161 hires, to develop a “rapid reaction” cadre of staff with a proven record of good
performance. Currently, the system for vetting such employees is informal, and
recommendations for 3161 employees take place by word of mouth, rather than through a more
formal system with adequate documentation. The 3161 Personnel Office should review this
documentation (which should include a justification for accepting or rejecting each candidate for
a 3161 position) prior to sending forward a list of candidates to a potential hiring official. The
future supervisor does not need to see the performance file of an applicant with previous 3161
experience, but the 3161 Personnel Office recruiter should review it before forwarding a
candidate’s name.

Recommendation 48: The Bureau of Near Eastern Affairs should develop a written rating
system for employees hired temporarily under 3161 authority and assigned outside Iraq to make
possible a vetting system for reemployment. (Action: NEA)

Purchase Card Program

         The GSD manages the bureaus’ purchase card program. Three employees administer 14
purchase cards. Total FY 2010 purchases amounted to $438,843. Monthly reconciliations are
current. The GSD administrative officer reviews the purchase card program annually, but this
review is cursory and lacks depth, and the bureau’s purchase card program does not comply with
Department standards. Without in-depth reviews, the bureau does not have added assurance that
its transactions are free from error or misstatement. In a memorandum dated October 1, 2005, to
bureau and post program coordinators, the procurement executive required annual reviews to
employ a systematic, documented approach that includes testing transactions for a sufficient,
representative sample of purchase cards.


10
     Inspection of Embassy Baghdad, Report Number ISP-I-09-30A, dated July 2009
                                               54
                                   SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 49: The Bureau of Near Eastern Affairs should perform a purchase card
annual review for 2010 transactions in accordance with guidelines established by the Bureau of
Administration’s Office of the Procurement Executive. (Action: NEA)




                                         55
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Formal Recommendations
Recommendation 1: The Bureau of Near Eastern Affairs should develop an annual orientation
program and handbook for new personnel, including guidance on procedures and expectations
and information about support services. (Action: NEA)

Recommendation 2: The Bureau of Near Eastern Affairs should establish and implement a
mentoring program for entry-level officers and employees in personnel categories not already
covered by formal counseling and evaluation programs. The program should involve direct
engagement of the front office. (Action: NEA)

Recommendation 3: The Bureau of Near Eastern Affairs should eliminate the position of
Senior Advisor for Iranian Affairs and reprogram position number D-03530-00 to an office
where it can be better used. (Action: NEA)

Recommendation 4: The Bureau of Human Resources, in coordination with the Bureau of
Near Eastern Affairs, should establish standard operating procedures for reintegrating into the
Department the Foreign Service officers returning from duty with the Multinational Force and
Observers and include in the work requirements of a designated officer the responsibility to
address the reintegration challenges facing these individuals. (Action: DGHR, in coordination
with NEA)

Recommendation 5: The Bureau of Human Resources, in coordination with the Bureau of
Near Eastern Affairs and the Bureau of Diplomatic Security, should establish standard operating
procedures that prevent security clearances being terminated upon resignation of Department
personnel seconded to the Multinational Force and Observers. (Action: DGHR, in coordination
with NEA and DS)

Recommendation 6: The Bureau of Near Eastern Affairs, in coordination with the Bureau of
Legislative Affairs, should develop and implement standard operating procedures for dealing
with requests from the Congress. These procedures should include routinely notifying the Bureau
of Legislative Affairs staff and others within the Department, as appropriate. (Action: NEA, in
coordination with H)

Recommendation 7: The Bureau of Near Eastern Affairs, in coordination with the Office of
Policy, Planning and Resources for Public Diplomacy and Public Affairs, should rewrite the
work requirements and position descriptions to clearly delineate the authority, duties, and
responsibilities of the deputy assistant secretary for Public Diplomacy and Strategic
Communications and the director of the Office of Press and Public Diplomacy in relation to each
other. (Action: NEA, in coordination with R/PPR)

Recommendation 8: The Bureau of Near Eastern Affairs should develop a transition plan for
Iraq public diplomacy to give oversight responsibility to a career public diplomacy professional.
(Action: NEA)


                                         56
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 9: The Bureau of Near Eastern Affairs should integrate public diplomacy
more widely throughout its Bureau Strategic and Resource Plan and incorporate the concepts
from the Public Diplomacy Strategic Framework. (Action: NEA)

Recommendation 10: The Bureau of Near Eastern Affairs, in coordination with the Bureau of
Public Affairs, the Office of International Information Programs, and the Office of Policy,
Planning and Resources for Public Diplomacy and Public Affairs, should develop a
memorandum of understanding outlining the conditions under which the Bureau of Near Eastern
Affairs will carry out blogging, in order to avoid duplication and to ensure policy and message
coordination. (Action: NEA in coordination with PA, IIP, and R/PPR)

Recommendation 11: The Bureau of Near Eastern Affairs, in coordination with the Bureau of
Public Affairs and the Office of International Information Programs, should come to a common
policy regarding when clearances are and are not needed for social media messages. (NEA, in
coordination with PA and IIP )

Recommendation 12: The Bureau of Near Eastern Affairs should find cost-effective means to
translate into Arabic portions of the Web site and informational materials of its Office of Middle
East Partnership Initiative. (Action: NEA)

Recommendation 13: The Bureau of Near Eastern Affairs, in coordination with the Bureau of
Educational Affairs, should implement procedures to routinely distribute brochures and
informational material about the State Alumni Web site to Middle East Partnership Initiative
exchange participants while they are in the United States and to furnish lists of Middle East
Partnership Initiative exchange participants to the Bureau of Educational and Cultural Affairs.
(Action: NEA, in coordination with ECA)

Recommendation 14: The Bureau of Near Eastern Affairs should rewrite the position
description of the grants management division chief; conduct a desk audit to determine whether
the position has the correct skill code and grade level, given its range of management
responsibilities; and reclassify and regrade the position, if warranted. (Action: NEA)

Recommendation 15: The Bureau of Near Eastern Affairs should consult with the Office of
the Procurement Executive to confirm that the Middle East Partnership Initiative grant templates
and documents accord with Department-wide grants policies and literature. (Action: NEA)

Recommendation 16: The Bureau of Near Eastern Affairs should review its overall staffing
complement in order to identify and assign to the Office of Arabian Peninsula Affairs a second
full-time equivalent position for the Yemen desk. (Action: NEA)

Recommendation 17: The Bureau of Near Eastern Affairs should streamline the management
organization of the Office of Iraq Affairs in order to improve efficiency and communication.
(Action: NEA)

Recommendation 18: The Bureau of Near Eastern Affairs should implement flexible
schedules to reduce overtime expenses in the Office of Iraq Affairs. (Action: NEA)
                                              57
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Recommendation 19: The Bureau of Near Eastern Affairs should review the portfolios in the
Office of Iraq Affairs in order to revise and reassign staff within the office, so that work is more
evenly distributed. (Action: NEA)

Recommendation 20: The Bureau of Near Eastern Affairs should eliminate the assembly and
dissemination of daily media and cable summaries by the Iraq Policy and Operations Group of
the Office of Iraq Affairs. (Action: NEA)

Recommendation 21: The Bureau of Near Eastern Affairs should require the Iraq Policy and
Operations Group analysts to conduct guidance and coaching on the definition of State
Messaging and Archive Retrieval Toolset cable profiles for its employees. (Action: NEA)

Recommendation 22: The Bureau of Near Eastern Affairs should assign the Iraq Policy and
Operations Group analysts to sector-specific supervisors in the Office of Iraq Affairs, where they
can contribute more efficiently to office operations. (Action: NEA)

Recommendation 23: The Iraq Transition Coordinator, in coordination with the Bureau of
Near Eastern Affairs and the Under Secretary for Management, should convene an offsite retreat
in 2011, at the director level and above, with representatives of relevant bureaus and agencies, to
examine, report on, and memorialize in writing the lessons learned in the military-to-civilian
transition in Iraq. (Action: S/ITC, in coordination with NEA and M)

Recommendation 24: The Bureau of Near Eastern Affairs should transmit a closeout cable in
2011 that summarizes the lessons learned about the operations of the provincial reconstruction
teams and their stabilization efforts. (Action: NEA)

Recommendation 25: The Bureau of Near Eastern Affairs should transmit to all posts, in 2011
and annually thereafter, a cable that reports on the status of the best practices working group. The
cable should identify the range of activities reported to the group, including data collection,
analysis and validation, and dissemination. The cable also should identify the numerous U.S.
public and private entities engaged in gathering lessons learned in Iraq, and provide Web links
and points of contact in order to encourage contributions from the foreign affairs community.
(Action: NEA)

Recommendation 26: The Bureau of Near Eastern Affairs should implement procedures to
archive the lessons learned materials held in the Iraq office files on an annual basis, according to
Department records management standards and employing the Traffic Analysis by Geography
and Subject labeling system. (Action: NEA)

Recommendation 27: The Bureau of Near Eastern Affairs should establish standard operating
procedures in the grants unit of the Office of Iraq Affairs in order to capture accurate information
and strengthen management of assistance programs in Iraq. (Action: NEA)

Recommendation 28: The Bureau of Near Eastern Affairs should budget and plan for one of
its grants officers in the Office of Iraq Affairs to conduct twice-yearly grants officer
                                                   58
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

representative training for officers at Embassy Baghdad and constituent posts who have
assistance oversight responsibilities. (Action: NEA)

Recommendation 29: The Bureau of Near Eastern Affairs should designate, train, and
appropriately certify a U.S. direct-hire employee to backfill for the warranted grants officer, as
needed, in the Office of Iraq Affairs. (Action: NEA)

Recommendation 30: The Bureau of Near Eastern Affairs should issue guidance on the types
of email and other correspondence that staff should archive in the State Messaging and Archive
Retrieval Toolset system. (Action: NEA)

Recommendation 31: The Bureau of Near Eastern Affairs should issue a bureau memorandum
notice explaining that all Department employees are required to establish, maintain, and annually
retire official records, including email messages that meet the definition of records as specified
in Department guidance. It should also develop and implement a monitoring system to verify that
bureau offices are in compliance. (Action: NEA)

Recommendation 32: The Bureau of Human Resources should assess the domestic human
resources services for the Bureau of Near Eastern Affairs and give the bureau recommendations
for its future services. (Action: DGHR)

Recommendation 33: The Bureau of Near Eastern Affairs, in coordination with the Bureau of
South and Central Affairs, the Bureau of Human Resources, and the Foreign Service Institute,
should evaluate domestic human resources delivery options, select a human resources service
provider, and sign a relevant service-level agreement with measurable service standards for all
categories of service. (Action: NEA, in coordination with SCA, DGHR, and FSI)

Recommendation 34: The Bureau of Near Eastern Affairs, in coordination with the Foreign
Service Institute and the Bureau of Human Resources, should negotiate a service-level
agreement, including customer service standards, with the chosen domestic human resources
service provider. (Action: NEA, in coordination with FSI and DGHR)

Recommendation 35: The Bureau of Near Eastern Affairs, in coordination with the Bureau of
Resource Management, should determine the best reports to run and modify to obtain an
overview of the status of its funds; train relevant financial management staff to run these reports;
and then run, analyze, and act upon status-of-funds reports at both the appropriation and
allotment levels quarterly. (Action: NEA, in coordination with RM)

Recommendation 36: The Bureau of Near Eastern Affairs should reconstruct and determine
the status of its Iraq Economic Support Fund appropriation from FY 2006-07. (Action: NEA)

Recommendation 37: The Bureau of Near Eastern Affairs should develop a policy that
outlines where all obligating documents will be maintained, and how they will be maintained,
including the specification that obligating documentation should include the name and office of
appropriate points of contact. (Action: NEA)

                                          59
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 38: The Bureau of Resource Management, in coordination with the Bureau
of Near Eastern Affairs, should review the circumstances under which the Bureau of Near
Eastern Affairs has used Military Interdepartmental Purchase Requests to obtain Department of
Defense services and either reissue guidance on the use of Military Interdepartmental Purchase
Requests or take steps to correct obligating documents. (Action: RM, in coordination with NEA)

Recommendation 39: The Bureau of Near Eastern Affairs, in coordination with the Bureau of
Resource Management, should identify all travel advances in both Global Financial Management
System and E2 Solutions system that have been open for more than 30 days, query the
individuals, and seek reimbursement, if necessary. (Action: NEA, in coordination with RM)

Recommendation 40: The Bureau of Near Eastern Affairs, in coordination with the Office of
the Under Secretary for Management, should work with the bureau’s overseas missions to
develop a secure digital videoconference deployment plan. (Action: NEA, in coordination with
M/PRI)

Recommendation 41: (b) (5)



Recommendation 42: (b) (5)




Recommendation 43: The Bureau of Near Eastern Affairs should submit to the Bureau of
Human Resources a list identifying both delinquent raters and Civil Service employees whose
appraisal reports were late or not prepared. (Action: NEA)

Recommendation 44: The Bureau of Near Eastern Affairs should institute and enforce a
policy, with sanctions, that supervisors complete required employee appraisal reports prior to
leaving their positions with the bureaus. (Action: NEA)

Recommendation 45: The Bureau of Near Eastern Affairs should issue a management
instruction clarifying the Department’s employment policy, with emphasis on allowed practices
by managers and selection officials, and on merit system principles. (Action: NEA)

Recommendation 46: The Bureau of Near Eastern Affairs should implement procedures that
require the use of a time and attendance form signed by each employee and approved by the
employee’s supervisor and that require all employees to submit completed forms to a designated
timekeeper. (Action: NEA)

Recommendation 47: The Bureau of Near Eastern Affairs should publish a single policy on
managing extension requests for personnel stationed both in and outside Iraq. (Action: NEA)

                                         60
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 48: The Bureau of Near Eastern Affairs should develop a written rating
system for employees hired temporarily under 3161 authority and assigned outside Iraq to make
possible a vetting system for reemployment. (Action: NEA)

Recommendation 49: The Bureau of Near Eastern Affairs should perform a purchase card
annual review for 2010 transactions in accordance with guidelines established by the Bureau of
Administration’s Office of the Procurement Executive. (Action: NEA)




                                         61
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Bureau of Near Eastern Affairs should periodically use one
of its weekly staff meetings or other gatherings with office directors as a forum for senior staff to
discuss professional development, both for themselves as supervisors and their subordinates.

Informal Recommendation 2: The Bureau of Near Eastern Affairs should prepare, sign, and
submit work requirement statements for all front office employees.

Informal Recommendation 3: The Bureau of Near Eastern Affairs should establish a bureau-
wide calendar of events, visitors, and programs.

Informal Recommendation 4: The Bureau of Near Eastern Affairs should require the deputy
assistant secretary for Public Diplomacy and Strategic Communications and the director of the
Office of Public Diplomacy to travel to the region in the very near future, to familiarize
themselves with the public diplomacy programs and challenges in the field.

Informal Recommendation 5: The Bureau of Near Eastern Affairs should encourage the
deputy assistant secretary for Public Diplomacy and Strategic Communications and the director
of the Office of Press and Public Diplomacy to have more informal, in-depth contact with the
staff, through monthly brown-bag lunches at Navy Hill and other gatherings, such as an all-staff
meeting off site.

Informal Recommendation 6: The Bureau of Near Eastern Affairs should include the Office of
Press and Public Diplomacy’s deputy director for public diplomacy on the press office
distribution list, to improve information sharing between the two elements of the office.

Informal Recommendation 7: The Bureau of Near Eastern Affairs should work out an
understanding between the Middle East Partnership Initiative’s public outreach unit and the
bureau’s press office, regarding procedures for handling journalist interviews about the Middle
East Partnership Initiative, factoring in issues like timing and sensitivity.

Informal Recommendation 8: The Bureau of Near Eastern Affairs should require the senior
grants official in the office of the Middle East Partnership Initiative to take Department-specific
grants training.

Informal Recommendation 9: The Bureau of Near Eastern Affairs should review the purpose
of the weekly staff meeting in the Office of Iraq Affairs and widely communicate the substance
of the meetings in the office.
                                          62
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Informal Recommendation 10: The Bureau of Near Eastern Affairs should require that each
departing employee complete and return to the Executive Office a comprehensive departing
employee checklist.

Informal Recommendation 11: The Bureau of Near Eastern Affairs should develop and post
on its SharePoint site, standard operating procedures and document templates related to the
actions required in the event of evacuation from an overseas mission.

Informal Recommendation 12: The Bureau of Near Eastern Affairs should require regional
deputy executive directors to meet quarterly with Office of Civil Rights representatives to
develop case strategies.

Informal Recommendation 13: The Bureau of Near Eastern Affairs should require its relevant
financial management staff to collaborate on the best report format for reviewing the status of its
funds at a macro level.

Informal Recommendation 14: The Bureau of Near Eastern Affairs should develop a list of
needed reports, determine which reports each analyst uses, look at the modifications to each of
these reports, provide training to the staff, and, if necessary, contact the Bureau of Resource
Management for assistance.

Informal Recommendation 15: The Bureau of Near Eastern Affairs should assign select travel
responsibilities to the other analysts in the travel unit and cross-train them on the duties of the
contractor responsible for travel.

Informal Recommendation 16: The Bureau of Near Eastern Affairs should enforce use of the
government-authorized charge card.

Informal Recommendation 17: The Bureau of Near Eastern Affairs should direct the
Executive Office to meet weekly with Bureau of Information Resource Management and the
Bureau of Administration Facilities Maintenance Services counterparts to address customer
issues.

Informal Recommendation 18: (b) (5)




Informal Recommendation 19: (b) (5)


Informal Recommendation 20: (b) (5)


                                          63
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



Informal Recommendation 21: (b) (5)



Informal Recommendation 22: (b) (5)



Informal Recommendation 23: (b) (5)



Informal Recommendation 24: The Bureau of Near Eastern Affairs should counsel senior
managers and the executive director regarding appropriate recruiting practices.




                                      64
                          SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                       Name                 Arrival Date
                                                            (Month/Year)
Front Office:
Assistant Secretary                    Jeffrey D. Feltman   08/2009
Principal Deputy Assistant Secretary   Ronald Schlicher     07/2010
Deputy Assistant Secretary             Jacob Walles         06/2010
Deputy Assistant Secretary             Janet Sanderson      07/2009
Deputy Assistant Secretary             Greta Holtz          06/2010
Deputy Assistant Secretary             Philo Dibble         08/2010
Deputy Assistant Secretary             Tamara Wittes        11/2009
Deputy Assistant Secretary             Michael Corbin       07/2009

Office Directors:
Israel Palestinian Affairs             Paul Sutphin         08/2010
Egypt and Levant Affairs               Nicole Shampaine     07/2008
Arabian Peninsula Affairs              Steven Bondy         05/2009
Maghreb Affairs                        William Roebuck      09/2010
Regional Affairs                       Raymond Maxwell      09/2009
Press and Public Diplomacy             Philip Frayne        09/2010
Iranian Affairs                        Henry Wooster        10/2010
Partnership Initiative                 Karen Volker         08/2010
Iraq Affairs                           John Desrocher       09/2010
Executive Office                       Jay Anania           08/2009




                                         65
                             SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED


Abbreviations
3161         Excepted Civil Service hired under U.S. Code Title 5, Section 3161
AIP          Afghanistan, Iraq, and Pakistan
BBG          Broadcasting Board of Governors
BSO          Bureau security officer
COAST        Consolidated Overseas Accountability Support Toolbox
DAS          Deputy assistant secretary
D&CP         Diplomatic and Consular Programs
Department   U.S. Department of State
DOD          Department of Defense
DS           Bureau of Diplomatic Security
EX           Executive Office of the Bureau of Near Eastern Affairs and the Bureau of
             South and Central Asian Affairs
FAH          Foreign Affairs Handbook
FAM          Foreign Affairs Manual
FSI          Foreign Service Institute
FSI/HR       Foreign Service Institute,Human Resources
GFMS         Global Financial Management System
GSD          General Services Division
HR           Human resources
IPOG         Iraq Policy and Operations Group
IRM          Bureau of Information Resource Management
ISPO         Iraq Strategic Partnership office
IT           Information technology
MIPR         Military Interdepartmental Purchase Request
MEPI         Middle East Partnership Initiative
NEA          Bureau of Near Eastern Affairs
NEA/PPD      Bureau of Near Eastern Affairs, Office of Press and Public Diplomacy
ODS          Office of Domestic Services
OIG          Office of Inspector General
OIP          Orientation and In-Processing Division
PASO         Pakistan and Afghanistan support office
PMO          Post management officer
RFMS         Regional Financial Management System
RM           Bureau of Resource Management
SCA          Bureau of South and Central Asian Affairs
SMART        State Messaging and Archive Retrieval Toolset
S/SEMEP      Office of the Special Envoy to the Middle East Peace Process
S/SRAP       Office of the Special Representative to Afghanistan and Pakistan
TSCO         Top Secret control officer
USO          Unit security officer




                               66
                   SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


Appendix A: Summary of Foreign Assistance Funding
Allocation
($ in thousands)
  FY 2010 State and U.S. Agency for International                   Iraq            Other          Total
     Development-Controlled Foreign Assistance                     Portion
            Resources for the NEA Region
                  (in thousands) 11

Foreign Military Financing                                                        4,542,498       4,542,498
Economic Support Funds                                               382,500      1,243,400       1,625,900
International Narcotics Control and Law Enforcement                  569,440        126,250         695,690
Nonproliferation, Antiterrorism, Demining and Related                 30,300         54,635          84,935
Programs
Peacekeeping Operations                                                               26,000         26,000
Global Health and Child Survival                                                       8,000          8,000
Development Assistance                                                                64,935         64,935
International Military Education and Training                           2,000         16,593         18,593

Total                                                               $984,240 $6,082,311 $7,066,551




11
 The numbers are taken from NEA’s FY 2012 Bureau Strategic and Resource Plan. They do not include other U.S.
Government or agency assistance to the region such as DOD-funded programs.


                                             67
                                 SENSITIVE BUT UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs
         and resources hurts everyone.

       Call the Office of Inspector General
                    HOTLINE
                   202-647-3320
                or 1-800-409-9926
         or e-mail oighotline@state.gov
      to report illegal or wasteful activities.

              You may also write to
           Office of Inspector General
            U.S. Department of State
              Post Office Box 9778
              Arlington, VA 22219
           Please visit our Web site at:
               http://oig.state.gov

        Cables to the Inspector General
       should be slugged “OIG Channel”
           to ensure confidentiality.
SENSITIVE BUT UNCLASSIFIED




            68
SENSITIVE BUT UNCLASSIFIED
